<html>
<title> - COUNTERING THE THREAT OF FAILURE IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-291]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-291
 
             COUNTERING THE THREAT OF FAILURE IN AFGHANISTAN

=======================================================================



                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
55-156                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Craddock, GEN John, U.S. Army (Ret.), former Supreme Allied 
  Commander-Europe, Myrtle Beach, SC.............................     5
    Prepared statement...........................................     6
Crocker, Hon. Ryan, former U.S. Ambassador to Iraq and Pakistan, 
  U.S. Charge d'Affaires to Afghanistan, Department of State, 
  Spokane, WA....................................................     8
    Prepared statement...........................................     9
Hosseini, Khaled, U.S. Envoy for the U.N. High Commissioner for 
  Refugees (UNHCR), San Jose, CA.................................    20
    Prepared statement...........................................    23
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lockhart, Clare, cofounder and director, Institute of State 
  Effectiveness, Washington, DC..................................    11
    Prepared statement...........................................    13
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    52
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)




           COUNTERING THE THREAT OF FAILURE IN AFGHANISTAN

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Casey, Webb, Shaheen, 
Kaufman, Lugar, Corker, Isakson, Barasso, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Let me explain to folks that originally this hearing had 
been set for 10 o'clock today. It is our hope that somewhere 
around 10 o'clock we will have a quorum so that the Foreign 
Relations Committee can conduct its business meeting. We have 
some nominations business to report out. So, I hope colleagues, 
and their staffs particularly, can ensure that if we aim for 10 
o'clock, it can be a very, very minimalist requirement on 
everybody's time.
    Meanwhile, we will go into the substance of today's 
hearing; the second in a series of hearings that we're going to 
have with respect to Afghanistan. Yesterday was the first 
hearing. We heard three compelling cases, each of them making 
strong arguments, individually, for how America should proceed. 
And the prescriptions ranged from dramatically reducing the 
footprint to expanding our commitment of troops and money to a 
level that would basically constitute pretty significant 
nation-building.
    John Nagl, a coauthor of the military's counterinsurgency 
manual--who worked very closely with General Petraeus--argued 
that victory could require as many as--according to the Field 
Manual for standard counterinsurgency operations--600,000 
troops and a commitment of at least 5 years. The bulk of those 
troops--up to 400,000--would eventually be Afghan. But, it was 
clear, and stated, that United States forces would be needed 
for years as trainers, as combat mentors, in order to fill the 
security gap before the Afghans were able to take over.
    Stephen Biddle argued that the benefits of a stepped-up 
counterinsurgency campaign outweighed the costs, but that it 
was a very close call. He acknowledged both the need for more 
troops and the genuine possibility of failure, even if we do up 
the ante. In his view, there could be no effective 
counterterrorism without an effective counterinsurgency. And he 
agreed with Dr. Nagl about the need for significant United 
States military involvement in Afghanistan to help prevent the 
destabilization of the country--of Pakistan.
    Finally, Rory Stewart challenged key assumptions of the 
administration's policy. Instead of escalation, he recommended 
that we maintain a small counterterrorism capacity to deny a 
safe haven to al-Qaeda, and continue providing development aid 
on a low-key, but long-term, basis. He argued that we need not 
physically block al-Qaeda from returning to Afghanistan, we 
just have to keep Afghanistan from providing al-Qaeda with 
conditions of security and operational ease that they couldn't 
get in Pakistan, Somalia, Yemen, or elsewhere. He argued that 
Pakistan would stand or fall on its own, regardless of events 
across the border.
    Listening to these distinguished experts argue their cases, 
and listening to the important and, I think, very penetrating 
questions of my colleagues, it was obvious that there are 
fundamental disagreements that need to be resolved in order to 
try to build a consensus around a policy for going forward in 
Afghanistan. Despite the differences, I believe there are some 
central truths on which we can all agree.
    First, we need a winning civilian strategy. I've said 
repeatedly that we will not force the surrender of the Taliban 
by military force alone. Therefore, any strategy that lacks a 
strong civilian component is doomed.
    Second, our greatest national priority here is to ensure 
that Afghanistan does not destabilize Pakistan. As we debate 
how to succeed in Afghanistan, we must evaluate the impact of 
every decision on our beleaguered allies in Islamabad.
    But, history tells us that the challenge is not only from 
the East. Afghanistan shares a 1,300-mile northern border with 
Central Asian countries that have suffered from instability 
themselves. Iran and Russia have also--have vested interests in 
Afghanistan. Unless we find common ground with them, I would 
think that we will continue competing instead of cooperating.
    Third, we need to counter the growing narcotics problem. As 
we described in a committee report released last month, senior 
military and civilian officials believe it will be extremely 
difficult to defeat the Taliban and establish good government 
without disrupting Afghanistan's opium trade. Afghanistan 
supplies more than 90 percent of the world's heroin and 
generates about $3 billion a year in profits; money that helps 
to finance the Taliban and other militant groups.
    We need to be realistic and pragmatic. Unlike Iraq, 
Afghanistan is not a ``reconstruction'' project. It is a 
``construction'' project in one of the poorest and most corrupt 
countries in the world. We have to come up with concrete goals, 
and be clear about what and how much we are prepared to do to 
achieve them.
    I might add, there may well be a fourth thing on which we 
can agree, and that is that the problem of governance may even 
be in fact, more serious than the challenge of the Taliban. And 
many people suggest, and I'm not sure it isn't now becoming 
more clear, that the absence of governance, the inadequacy of 
governance, the corruption of the governance in Afghanistan is 
perhaps one of the most demoralizing and defeating components 
of what may drive some people to the Taliban or elsewhere. And 
that is something we need to address.
    Today, we welcome four witnesses who will take us deeper 
into this debate by sharing their ideas for what should change 
on the ground in order to succeed in Afghanistan. I might say 
three of them have traveled a very long distance, and we are 
very, very appreciative. Dr.--the Honorable Ambassador Ryan 
Crocker flew from the west coast to be here just for this. And 
General Craddock drove all the way up from North Carolina to be 
here. And I'm not sure of everybody else's travel arrangements, 
but we're enormously appreciative for everybody being here.
    We're going to hear from General Craddock first. He was the 
Supreme Allied Commander-Europe until a couple of months ago, 
when he retired from the Army. He will be followed by 
Ambassador Ryan Crocker, our former Ambassador to Iraq and 
Pakistan, and Charge in Kabul. And there are probably very few 
people who have as much understanding and experience in this 
region and in these challenges as Ambassador Crocker. Ms. Clare 
Lockhart, the coauthor of ``Fixing Failed States,'' and a 
former adviser to the Afghan Government, will discuss her 
recommendations for a successful civilian strategy. And 
finally, Dr. Khaled Hosseini, the well-known author of ``The 
Kite Runner'' and ``A Thousand Splendid Suns,'' who has just 
returned from Afghanistan as U.N. Special Envoy for Refugee 
Issues.
    And we're delighted that each of you could be here with us 
today. Thank you.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    Since President Obama's inauguration, his administration 
has taken a series of steps to reorder American foreign policy 
priorities. The President identified the war in Afghanistan as 
his administration's highest combat priority, and has thus 
shifted emphasis and resources from Iraq to Afghanistan and 
Operation Enduring Freedom. He argued that the United States 
effort in Afghanistan had been neglected in favor of our 
intervention in Iraq. President Obama made an important effort 
to sustain continuity of command and control of our Defense 
Department at the highest levels by retaining an effective and 
respected Secretary of Defense and promoting General Petraeus 
from Commander of United States forces in Iraq to Commander of 
Central Command, where he heads our military efforts across the 
region. Both men have identified civil-military coordination as 
essential for progress toward U.S. goals in the region.
    At a more operational level, President Obama named 
Ambassador Richard Holbrooke as special representative for 
Afghanistan and Pakistan. He leads our strategic engagement 
with the governments of the region while our able Ambassadors, 
Ann Patterson in Pakistan and Karl Eikenberry in Afghanistan, 
work tirelessly in carrying out their respective duties.
    The U.S. diplomatic effort is joined in cause by ADM Mike 
Mullen, Chairman of the Joint Chiefs. Beyond his responsibility 
for assuring the fitness and readiness of our fighting forces 
worldwide, he is closely engaged in the delicate and essential 
security discussions across South Asia. In his many visits to 
Pakistan, India, and Afghanistan Admiral Mullen has worked to 
forge a closer, more confident relationship between our 
Government and each of theirs. These leaders are seized of our 
commitment to Afghanistan and Pakistan, and strengthening the 
foundations for stability. They, along with Secretary of State 
Clinton, National Security Advisor James Jones, and Vice 
President Biden, are together in the final stages of a crucial 
review of our strategies and policies in the region.
    But, the President is the Commander in Chief and he is the 
one who will make the final choices from the options he is 
presented. It is widely hoped that he will produce a coherent 
operational strategy for United States engagement in 
Afghanistan. Such an integrated strategy has yet to be 
unveiled, despite the many high- and low-level reviews, and 
none has been described by the President with the force and 
conviction necessary to persuade the American people to endorse 
what will likely be a much longer, albeit necessary, commitment 
to achieve stability in the region.
    As he formulates his new strategy, I strongly urge the 
President to make a concerted effort to work personally with 
the Congress, which will control the purse strings for our 
endeavors in the region. We in Congress have heard of general 
outlines of an approach to the region, highlighted by the 
President and his senior advisers in March of this year, namely 
that we intend to, ``disrupt, dismantle, and defeat'' al-Qaeda 
and their allies.
    We have also received extensive requests and notifications, 
through several supplemental appropriations and the fiscal year 
2010 budget requests, identifying billions of dollars in 
assistance and operations funding for Afghanistan and the 
region. But, many questions have arisen surrounding troop 
levels, civilian force levels, and contractor roles and 
behavior. And considering the important role of development for 
the region, I'm troubled that there is still no USAID 
administrator. As a member of both this committee and the 
Agriculture Committee, I'm concerned about reports that $170 
million in USAID money will be transferred to the Department of 
Agriculture to develop an expeditionary agricultural 
development capacity for Afghanistan. This, I believe, is 
normally the job of USAID.
    For the moment, the committee has been informed that 
General McChrystal's suggestions for a future strategy and 
tactics are being studied in the administration. We are led to 
believe that after the administration has studied the 
McChrystal report for an indefinite period of time, the General 
may suggest appropriate troop levels for the United States and 
our NATO allies necessary to achieve the administration's final 
decision on objectives.
    The committee hearings this week offered the administration 
an opportunity to explain the challenges and difficult 
decisions to be made after nearly a year of study. Invitations 
were issued, but they were declined. Thus, we have turned today 
to key actors and former officials experienced in government, 
war zones, Afghanistan, and the region, to provide their 
insight and recommendations. We are deeply grateful they have 
accepted our invitation to present timely information to our 
committee and to all Americans in an extensively covered public 
forum. I hope that the administration will soon decide on the 
time for its views to reach the American people.
    In any event, it is critical that the full force and voice 
of the President lead the discussion around this national 
strategic priority with so many American lives and hundreds of 
billions of dollars at stake. Only he can lay the foundation 
that will gain the confidence of Congress and our soldiers, 
development experts, diplomats, and partners.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    We're going to begin with General Craddock and run right 
across the table. So, General, if you would be good enough--
your full testimonies will be placed in the record as if read 
in full, so if you could summarize in approximately 5 minutes 
or so, it would be helpful, and then we could have more time 
for discussion.

   STATEMENT OF GEN JOHN CRADDOCK, U.S. ARMY (RET.), FORMER 
       SUPREME ALLIED COMMANDER-EUROPE, MYRTLE BEACH, SC

    General Craddock. Chairman Kerry, Ranking Member Lugar----
    The Chairman. Let me just comment, we need five more 
Senators, if we can get them here, for the quorum, and we'll be 
in good shape.
    Thank you, General.
    General Craddock. Thank you for the opportunity to appear 
before you here today. I think the focus of this hearing--
Afghanistan--is important, timely, and essential. As I've been 
requested to provide insight on the counternarcotics efforts in 
Afghanistan, I will focus my short opening remarks in that 
area.
    Before exploring the counternarcotics challenge, I would 
like to emphasize that the NATO commitment to Afghanistan, as 
an alliance, is strong. I would also point out that the 
commitment differs among individual NATO members. Continued 
U.S. leadership in this mission is essential to both deepen the 
level of support of NATO and to ensure continued participation 
of all alliance members.
    With regard to the issue of counternarcotics in 
Afghanistan, may I preface my comments and responses to your 
later questions with the understanding that my perspective is 
from my last assignment on Active Duty with the United States 
Armed Forces, that of the Supreme Allied Commander-Europe: a 
NATO perspective.
    In October 2006, NATO assumed responsibility for the 
security for the entire country of Afghanistan. The authority 
to do so was provided to the Supreme Allied Commander by the 
North Atlantic Council. The means of granting that authority 
was through the Council's approval of the NATO military 
operations plan for Afghanistan. The strategic operations plan 
contains specific instructions, to all subordinate commands 
responsible for conducting operations in Afghanistan, 
concerning counternarcotics operations. Specifically, NATO 
forces were not to conduct counternarcotics operations or 
activities, to include eradication of poppy crops. What was 
permitted was support to the Afghan counternarcotics forces. 
Support in terms of information, intelligence, logistic 
support, and, if required, in extremis support and medical 
support for Afghan counternarcotics forces, all upon request by 
those forces.
    In February 2007, the current intelligence assessments, 
discussions with Afghan authorities, and consultations with 
United Kingdom and United States counternarcotics authorities 
all combined to establish a strong link between the narcotics 
traffickers and the Afghan insurgents, particularly the 
Taliban. A growing body of evidence indicated that much of the 
funding of the Taliban insurgency was being generated by the 
narcotics industry in Afghanistan. U.N. experts estimated 
upward of $200 million narcodollars going into insurgent 
coffers. It was at that point, as the strategic commander, I 
began to urge for the approval of additional authorities for 
NATO forces in Afghanistan to conduct operations against both 
narcotics facilities and facilitators. Our assessment was that 
reducing the money available to the insurgents would make it 
more difficult for them to hire soldiers, pay bomb and 
improvised explosive device--the IED makers, and buy weapons 
and materiel. All were essential in reducing the level of 
violence and providing enhanced security. And it was not until 
November 2008, some 18 months later, that NATO, via a defense 
ministerial meeting, approved these additional authorities. The 
ministers concluded, the preponderance of evidence to that date 
supported the assessments that the narcotraffickers were 
providing support to the insurgency. Subsequent guidance and 
orders were issued, and NATO forces began using these expanded 
authorities. As of mid-June this year, some 25 counternarcotics 
operations have been conducted, either by NATO forces alone or 
in conjunction with Afghan counternarcotics forces, with 
favorable results.
    Many processing facilities, the laboratories, have been 
destroyed, precursor material confiscated and destroyed, opium 
paste and refined heroin confiscated, and personnel 
apprehended.
    While much has been accomplished, much more remains to be 
done.
    First and foremost, NATO ISAF forces must continue to 
conduct operations against the facilities and the facilitators, 
not only to reduce the money available to the insurgents, but 
also with the secondary effect of reducing the level of 
corruption countrywide.
    Second, NATO and NATO Member Nations, on a bilateral basis, 
must continue to partner and support the development of the 
Afghan security and counternarcotics forces. The end state for 
this effort are fully competent, capable Afghan security forces 
that minimize the impact of narcotics on the Afghan society.
    Once again, thank you for this opportunity to appear before 
this committee, and I look forward to your questions.
    [The prepared statement of General Craddock follows:]

   Prepared Statement of GEN John Craddock, U.S. Army (Ret.), Former 
           Supreme Allied Commander-Europe, Myrtle Beach, VA

    Chairman, ranking member, may I first thank you for the opportunity 
to appear before you here today. The focus of this hearing--
Afghanistan--is important, timely, and essential. As I have been 
requested to provide insight on the counternarcotics (CN) efforts in 
Afghanistan, I will focus my short opening remarks in that area.
    Before exploring the counternarotics challenge, I want to emphasize 
that the NATO commitment to Afghanistan--as an alliance--is strong. I 
would also point out that the commitment differs among individual NATO 
members. Continued U.S. leadership in this mission is essential to both 
deepen the level of support and to ensure continued participation of 
all alliance members.
    Wth regard to the issue of counternarcotics in Afghanistan, I must 
preface my comments and responses to your later questions, with the 
understanding that my perspective is from my last assignment on active 
duty with the United States Armed Forces--that of the Supreme Allied 
Commander, Europe. In that capacity, I was the commander of all NATO 
operational forces including those in Afghanistan. Therefore, my 
observations and assessments will be from a NATO perspective.
    In October 2006, NATO assumed responsbility for security for the 
entire country of Afghanistan. The authority to do so was provided to 
the Supreme Allied Commander, Europe, by the North Atlantic Council. 
The means of granting this authority was through the NAC's approval of 
the NATO military operations plan for Afghanistan.
    The strategic operations plan contained specific instructions to 
all subordinate commands responsible for conducting operations in 
Afghanistan concerning counternarcotics operations. Specifically, NATO 
forces were not to conduct conternarcotics operations or activities--to 
include eradication of poppy crops. What was permitted was support to 
Afghan counternarcotics forces. Wthin means and capabilities, NATO 
forces could provide information and intelligence on narcotics 
activities to Afghan CN forces, they could provide transportation and 
logistical support, they could provide operations planning support, and 
they could provide in extremis and medical support--all upon request by 
the Afghan counternarcotics forces.
    In February 2007, the current intelligence assessments, discussions 
with Afghan authorities, and consultations with United Kingdom and 
United States counternarcotics authorities--all combined to establish a 
strong link between the narcotics traffickers and Afghan insurgents--
particularly the Taliban. A growing body of evidence indicated that 
much of the funding for the Taliban insurgency was being generated by 
the narcotics industry in Afghanistan--all the way from the poppy 
farmer to the movement of refined heroin through and out of the 
country. United Nations experts estimated upward of $200 million 
narcodollars going into insurgent coffers. It was at that point, as the 
strategic commander, I began to urge for the approval of additional 
authorites for NATO forces in Afghanstan to conduct operations against 
both narcotics facilities and facilitators. Our assessment was that 
reducing money available to the insurgents would make it more difficult 
for them to hire soldiers, pay bomb and improvised explosive device 
(ied) -makers, and buy weapons and materiel--all essential in reducing 
the level of violence and providing enhanced security.
    It was not until November 2008--some 18 months later--that NATO, 
via a defense ministerial meeting, approved these additional 
authorities. The ministers concluded that the preponderence of evidence 
to that date supported the assessment that the narcotraffickers were 
providing material support to the insurgency--and that based on the 
original operations plan which directed action by NATO forces against 
the insurgents and those who supported it--adequate authority was 
provided without any revision or amendment to the existing plan.
    Subsequent guidance and orders were issued over the following 2 
months and by early spring of this year, NATO forces began using these 
expanded authorities. As of mid-June, some 25 counternarcotics 
operations had been conducted either by NATO forces alone or in 
conjunction with Afghan counternarcotics forces with significantly 
favorable results. Many processing facilities (labs) have been 
destroyed, precursor materiel confiscated and destroyed, opium paste 
and refined heroin confiscated, and personnel apprehended.
    While much has been accomplished, much more remains to be done. 
First and foremost, NATO/ISAF must continue to conduct operations 
against the facilities and the facilitators--not only to reduce money 
available to the insurgents--but also with the secondary effect of 
reducing the level of corruption countrywide. Second, NATO and NATO 
Member Nations, on a bilateral basis, must continue to partner and 
support the development of the Afghan security and counternarcotics 
forces. The end state for this effort are fully competent, capable 
Afghan security forces that minimize the impact of narcotics on the 
Afghan society.

    The Chairman. Thank you, General Craddock.
    Ambassador Crocker.

STATEMENT OF HON. RYAN CROCKER, FORMER U.S. AMBASSADOR TO IRAQ 
AND PAKISTAN, U.S. CHARGE d'AFFAIRES TO AFGHANISTAN, DEPARTMENT 
                     OF STATE, SPOKANE, WA

    Ambassador Crocker. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee.
    It's an honor to be before you today. I have had that honor 
a number of occasions in the past as a witness for the 
administration. Today is the first time I can honestly say that 
in addition to it being an honor, it's also a pleasure. 
[Laughter.]
    Mr. Chairman, Afghanistan is a critical national security 
interest for the United States, for the region, and for the 
international community. General Craddock has addressed some of 
the NATO perspective. I would comment briefly on a regional 
perspective, focusing particularly on Pakistan, where I was 
Ambassador from 2004 to 2007, and Iran, where I was involved in 
direct discussions with the Iranians on Afghanistan, from 2001 
to 2003.
    Mr. Chairman, as you know so well, our relationship with 
Pakistan is vital for our Nation's national security, as well 
as for stability in Afghanistan. We were closely allied with 
Pakistan in the effort to force the Soviets out of Afghanistan 
in the 1980s, but once the Soviets were out, so were we, and 
Pakistan went from being the most allied of allies, to being a 
sanctioned pariah. After 9/11, we are back. Pakistanis welcome 
that renewed engagement, but they ask, again, ``For how long?''
    We have an urgent need to build a stable, sustained 
relationship with Pakistan. And, Mr. Chairman, you, Senator 
Lugar, and this committee have shown the way, through your 
sponsorship of the Enhanced Partnership with Pakistan Act. It's 
precisely the type of long-term undertaking both our nations 
need.
    Pakistan today faces an interrelated set of insurgencies. 
Kashmiri militants to the east, al-Qaeda and Taliban to the 
west, and an internal insurgency that targets Pakistan's 
principal cities. It can be argued that much of this insurgency 
is of Pakistan's own making. But there is also a Pakistani 
narrative that says, in the case of support for the Taliban, 
they had no choice, after we withdrew in the 1990s.
    Mr. Chairman, during my time in Pakistan, I came to know a 
large number of mainstream political figures and senior 
military officers. None of them share the Taliban's vision for 
Pakistan and Afghanistan, yet many remain uncertain over the 
long-term prospects for our relationship. We need to learn from 
our past experience, and build for a better future; and your 
legislation, Mr. Chairman, shows us all the way.
    Afghanistan's western neighbor, Iran, poses a very 
different set of challenges. The multiple differences between 
the United States and Iran need no elaboration from me. On 
Afghanistan, however, we have at times found room for 
cooperation. In the wake of 9/11, when I sat down with Iranians 
under U.N. auspices, I found them fully supportive of United 
States military action to bring down the Taliban. United 
States-Iranian agreement on the Afghan interim authority was at 
the core of the success of the U.N.-sponsored Bonn Conference. 
And after I reopened our Embassy in Kabul in January 2002, we 
discussed with the Iranians, again under U.N. auspices, ways to 
strengthen the interim administration and to reduce the power 
of warlords.
    The Iranians hedged their bets, however, also providing 
sanctuary for al-Qaeda figures later implicated in attacks in 
the Arabian Peninsula that brought to an effective end that 
dialogue with Iran.
    Mr. Chairman, the administration has stated its willingness 
to engage in a dialogue with the Iranians. I think this is a 
positive step. I certainly support it. And I hope Afghanistan 
will be on the agenda, that the Iranians will take a strategic 
look at their own interests, because I think those interests 
also lie in a stable Afghanistan.
    Mr. Chairman, I would offer just a couple of thoughts based 
on my experience in Iraq. And one must be careful, as you note, 
not to draw too many parallels. Construction in Afghanistan, 
reconstruction in Iraq, I think, is a very good point. It is 
going to be very hard in Afghanistan. That does not mean 
hopeless. We have some very fine people in the fight. General 
McChrystal, Ambassador Eikenberry in Afghanistan, Ambassador 
Patterson in Pakistan, and my old comrade from Baghdad, General 
Petraeus, now overseeing both wars, I think, can give all 
Americans confidence that the right people are in the right 
place.
    It is the President, as Senator Lugar said, who must show 
the way. When he does, I hope that this committee and 
counterparts in the Senate and the House will seek from my 
former colleagues that irreplaceable perspective which is the 
view from the field.
    The stakes are very high, indeed, in Afghanistan, and, Mr. 
Chairman, I think all of us in America are indebted to you and 
the committee for helping us illuminate these issues.
    Thank you, sir.
    [The prepared statement of Ambassador Crocker follows:]

 Prepared Statement of Hon. Ryan C. Crocker, Former U.S. Ambassador to 
Iraq and Pakistan, U.S. Charge d'Affaires to Afghanistan, Department of 
                           State, Spokane, WA

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the honor of appearing before you today. Afghanistan is a critical 
issue for America's national security. Eight years ago this week, we 
paid a horrific price for allowing a strategic enemy the freedom to 
operate in Afghanistan. We are engaged against the same enemy today in 
the same area. That enemy is hoping that our patience will wear thin, 
that we will decide the cost is too high, that we will give them back 
the space they lost after 9/11. Mr. Chairman, that must not happen.
    Al-Qaeda and its Taliban supporters are a threat not to the United 
States alone but to the region and the entire international community, 
as the sad record of their terrorist attacks makes all too clear. It is 
a threat that requires an international and a regional response. 
General Craddock is addressing the NATO perspective. On the basis of my 
experience as Ambassador to Pakistan from 2004 to 2007 and my 
involvement in discussions with the Iranians on Afghanistan from 2001 
to 2003, I offer a few thoughts on the regional environment.
    Mr. Chairman, our relationship with Pakistan is vital for our own 
national security and for stability in Afghanistan. We understood this 
clearly after the Soviet invasion of Afghanistan in 1979. Our efforts 
against the Soviet occupation were largely staged from Pakistan. But 
once the Soviets were out so were we, and Pakistan went almost 
overnight from our most allied of allies to a sanctioned pariah. After 
9/11, we were back and major military and economic assistance programs 
were resumed. Pakistanis welcome our reengagement. They also wonder how 
long we will be around this time. We need a long-term, stable 
relationship with Pakistan, one in which both nations and peoples can 
have confidence. Such a relationship can only be built up over time, 
overcoming past suspicions and mistrust on both sides.
    Mr. Chairman, you, Senator Lugar, and this committee have shown us 
all the way forward through your sponsorship of the Enhanced 
Relationship with Pakistan Act. This is precisely the type of long-term 
undertaking we both so badly need.
    Mr. Chairman, Pakistan today faces a triple set of interrelated 
insurgencies: Kashmiri militants to the east; the Taliban, its 
supporters and the al-Qaeda terrorists it shelters to the west; and an 
internal militancy that strikes at the heart of Pakistan's principal 
cities. Some of this militancy is of Pakistan's own making. In the 
Pakistani narrative, some of it, like Pakistani support for the Taliban 
in the 1990s, grew from a lack of other options based on our 
estrangement. The history of that estrangement, and fear of its 
repetition, drives some in Pakistan to continue to hedge their bets.
    Mr. Chairman, during my time in Pakistan I came to know a large 
number of mainstream politicians and senior military officers. None of 
them share the Taliban's vision for Afghanistan or Pakistan. Yet many 
remain uncertain over the long-term prospects for our relationship. We 
need to learn from our past experience and build for a better future. 
Your legislation, Mr. Chairman, charts the course.
    Afghanistan's western neighbor, Iran, presents a very different set 
of challenges. The multiple and profound differences between the United 
States and the Islamic Republic need no elaboration from me. On 
Afghanistan, however, we have at times found room for cooperation. The 
Taliban in Afghanistan was an enemy to both of us--Iran almost went to 
war with the Taliban-led Afghan Government in 1999. In the wake of 9/
11, I found Iranian negotiators fully supportive of U.S. military 
action to bring down the Taliban. United States-Iranian agreement on 
the Afghan Interim Authority was at the core of the success of the 
U.N.-sponsored Bonn Conference on Afghanistan in December 2001. And 
after I reopened our Embassy in Kabul in January 2002, we discussed 
with the Iranians ways to strengthen the interim administration, to 
reduce the power of the warlords, the handover of al-Qaeda operatives, 
and even coordination of assistance projects. But the Iranians hedged 
their bets, also providing sanctuary and support for al-Qaeda 
terrorists who were later linked to lethal attacks in the Arabian 
Peninsula, actions that effectively ended our 18-month dialogue.
    Mr. Chairman, the Obama administration has stated its willingness 
to engage in talks with the Iranians. The Iranians have signaled a 
positive response. I support this initiative, and believe it offers an 
opportunity to reengage with Iran on Afghanistan. Iranian support for 
the Taliban, its existential enemy, is purely tactical, a weapon in 
their confrontation with us. A renewed dialogue on Afghanistan could 
afford Tehran the opportunity to think strategically on an issue of 
great importance to its own long-term national security.
    Mr. Chairman, I am no expert on Russia or Central Asia. But these 
states, too, play an important role in Afghanistan. The previous and 
current administrations have worked to foster trade and communication 
links between Afghanistan and the former Soviet Republics. It is 
important these efforts continue, and it is important that Afghanistan 
continue to be a part of our dialogue with Russia. We have no desire to 
repeat the Soviet experience in Afghanistan. Neither is there anything 
in our current effort in Afghanistan that is inimical to Russian 
interests. To the contrary, the defeat of an Islamic militancy close to 
Russia's borders should be very much in Moscow's interests.
    Mr. Chairman, in conclusion I offer a few thoughts based on my 
experience in Iraq from 2007 to 2009. One must be very careful in 
attempting to draw connections. They are very different countries with 
different histories. Iraq is largely urban; Afghanistan predominantly 
rural. In many respects, the challenge in Afghanistan is even greater 
than in Iraq. Thirty years of conflict have devastated an already poor 
country, leaving few services, virtually no middle class and no 
functioning state institutions. But hard does not mean hopeless, 
neither in Afghanistan nor in Iraq. Where I do see similarities is in 
how the United States approaches the challenges. We cannot get to the 
end in either fight on half a tank of gas. In Iraq, we went all in, and 
it made a difference. The President must lead. We have our finest 
people in the fight--General McChrystal and Ambassador Eikenberry in 
Afghanistan, Ambassador Patterson in Pakistan. General Petraeus, my 
comrade in Baghdad, now oversees both wars and there is simply no one 
in uniform more qualified to do so. Under their charge are the 
thousands of committed Americans, military and civilian who are putting 
their lives on the line. But it is the President who must make the 
commitment and show the way. When he does, I hope that this committee 
and counterparts in the Senate and the House will seek from my former 
colleague that irreplaceable perspective, the view from the field.
    Mr. Chairman, I thank you again for the privilege of testifying on 
this critical issue. The American people have consistently shown a 
willingness to make great sacrifices when they understand the stakes 
and have confidence in their leadership. The stakes are very high 
indeed in Afghanistan, and all of us are indebted to you and the 
committee for illuminating the issues.

    The Chairman. Thank you very much, Mr. Ambassador.
    I don't think I did justice, in introducing you, to the 
outstanding service that you provided us in Iraq and in 
Pakistan and through your career, and we are very, very 
grateful. I know how much value two Presidents had in your 
advice, and we're very grateful to you.
    Ms. Lockhart.
    We--I think we have two Senators?
    Voice: Two more, one's on the way.
    The Chairman. OK. We're two Senators away from an 
interruption.

STATEMENT OF CLARE LOCKHART, COFOUNDER AND DIRECTOR, INSTITUTE 
             OF STATE EFFECTIVENESS, WASHINGTON, DC

    Ms. Lockhart. Mr. Chairman, Senator Lugar, members of the 
committee, I thank you for the opportunity to address you.
    There is now an emerging recognition that there is no 
purely military resolution to the situation in Afghanistan, and 
that governance and development are as, if not more, important 
tools. I believe that the establishment of Afghan sovereignty, 
by which I mean enabling Afghans to exercise self-rule through 
Afghan institutions that can provide their own security, 
governance, and revenue-raising capability, provides the 
framework that we need. And it will provide, first, a means of 
stabilizing Afghanistan and critically denying space for the 
Taliban, who, as Senator Kerry recognized, derive their 
strength primarily from the weakness of Afghan institutions.
    Second, it provides basis for an exit--an honorable exit--
for American forces and presence on the ground, or a transition 
strategy, if we don't want to call it an ``exit strategy.''
    And third, it demonstrates to the Afghan population that 
the United States and allied presence is not an occupation. 
It's not an occupation at all, nor is it open-ended occupation.
    The military have now articulated a clear strategy for 
building up the Afghan security forces and protecting the 
population. And I believe we now need a similar articulation of 
a strategy for governance and development that matches the one 
the military's put forward in rigor and detail.
    First, I'd like to reflect on the mistakes made. I think 
that over the last years we have not had a clear strategy for 
the civilian component--for governance and development. Afghan 
institutions have been catastrophically underresourced. When I 
was on the ground in Afghanistan between 2001 and 2005, the 
first Afghan budget for a civil service that had 240,000 civil 
servants in 2002, was resourced to the level of $20 million. 
And this was enough to pay fuel for a month, but not to pay the 
doctors, teachers, and policemen, even salaries of $50 a month.
    And much activity from the aid system has been 
counterproductive. The provision of billions of dollars, with 
very little accountability, particularly to U.N. agencies and 
NGOs--not underestimating some of the great work that many U.N. 
agencies have done--and from the perspective of an Afghan 
citizen with no hope for a job or an education, there has been 
little outlet but to join the narcotics industry or sign up 
with the Taliban, in many parts of the country.
    Moving forward, I think the first question to address is, 
What does good-enough--or appropriate--governance look like? 
The first component is certainly security; building up the 
Afghan National Army, the police force, the Afghan intelligence 
services, and justice institutions, law enforcement 
institutions.
    But, security institutions alone won't make an Afghan 
Government capable of exercising authority and maintaining 
stability in the country. This will allow the drawdown. It 
requires, in my view, three other components. The first of 
these is rule of law; the decisionmaking institutions across 
the Cabinet and across the levels of Afghan governance--the 
capital city Kabul, but at province level, district level, 
municipalities and villages.
    The second component is public finance. We hear a lot about 
corruption, and I think we need to take a clearheaded look at 
the other side of that coin. How do we build the systems of 
accountability in revenue-raising and public expenditure that 
will allow Afghanistan to raise its own revenue and expend its 
own resources on its institutions for the decades to come?
    And the third component is basic services. And we're not 
talking, here, about a Valhalla or a Switzerland, but the basic 
services at the village level, in irrigation, to allow for 
agriculture, livelihoods, health, and education that will allow 
Afghans to live lives with dignity. And this will require 
investment in education. Another critical lacuna has been only 
to educate Afghans up to the age of 11; and if one only 
educates up to the age of 11, we're not going to have a civil 
service or a market economy capable of being self-sufficient.
    I think we have grounds for optimism. I question the myth 
of Afghanistan as an inherently corrupt culture full of 
warlords. There is an Afghan demand for rule of law rooted in 
their culture. There was a reasonable standard of governance in 
the middle decades of the 20th century. When I arrived in 
Kabul, there were 240,000 civil servants in place across the 
country, administering the country fairly well. I think the 
culture of corruption has been one that's been allowed to 
fester in recent decades, but is not of the culture.
    And finally, there was a series of successes between 2001 
and 2005, where a political framework, articulated through 
Bonn, allowed for a number of governance initiatives to be 
successful; most notably, the creation of the Afghan National 
Army from scratch and a number of national programs, including 
the National Solidarity Program that saw block grants issued to 
every village in the country, now across 23,000 villages, that 
allows villages to maintain their own affairs.
    I think we also have grounds for pessimism. There is a 
legacy of decades of war and a lost generation. And corruption 
was allowed to set in at the heart of government institutions. 
Back in 2004, the group of us who were assisting the government 
realized that it was probably inevitable in those circumstancs 
that this corruption would continue to fester and allow the 
country to fall back to the Taliban. I don't think this was 
inevitable, had a different approach been taken, and I don't 
think it's too late to put it right.
    I'll conclude with some short reflections on the emerging 
strategy. I think we can be encouraged to see that there is a 
strategy emerging from Kabul under the leadership of Ambassador 
Eikenberry and his excellent team, and in coordination with 
General McChrystal, to put in place a strategy that will 
support the creation of the adequate and necessary Afghan 
institutions. And I think this is balanced with understanding 
that we can't just focus on state institutions, we must also 
allow the space for Afghan civil society to hold that 
government accountable and invest in market institutions to 
create, in the short term, jobs that will pull people away from 
illicit activities and, over the medium term, lay the basis for 
an economy that will make Afghanistan self-sufficient.
    And I think we face two immediate challenges. Very sadly, 
the elections recently held did not renew the governance 
settlement in the country. And this is tragic, I think, because 
it was avoidable. And I do think some questions need to be 
asked of the way that the election was managed by the U.N., so 
that those mistakes can be avoided in future in Afghanistan and 
in other countries.
    But, we now face a paradox, because the COIN strategy 
requires there to be a host-nation government with a vision 
that the people can sign up to, and that government is not yet 
in place. I think we have different options for how a 
government that is good enough can be put in place. And once 
that political settlement is in place that will allow for the 
process of reconciliation with groups across the country, then 
I think the second key need is to articulate the governance and 
development strategy that is necessary. It is possible to put 
it into place, and then it must be resourced with the adequate 
resources that have been so sorely missing the last few years.
    Thank you.
    [The prepared statement of Ms. Lockhart follows:]

   Prepared Statement of Clare Lockhart, Cofounder and Director, The 
           Institute for State Effectiveness, Washington, DC

                              introduction
    The central foundation for stabilizing Afghanistan is the 
restoration of Afghan sovereignty. The current imperative is to 
identify a framework and process to rebuild the legitimacy and 
credibility of Afghanistan's institutions so that Afghans can govern 
themselves, maintain security, and raise their own licit revenue. This 
will in turn provide a viable exit strategy for foreign forces and 
allow for lessening dependence on financial support. Exiting 
responsibly depends on the increase in capability of both Afghan 
security forces and public finance institutions. Credible governance is 
also the means by which the Taliban will be reduced and eliminated, as 
it is widely agreed that it is the vacuum of governance that provides 
their space of operation.
    Governance is currently in crisis in Afghanistan. A combination of 
two decades of war, followed by international actors' lack of focus and 
unquestioning support have allowed corruption and the illegitimate 
economy to expand unchecked. The elections have not produced a 
legitimate winner, and rather have laid open to global public scrutiny 
the flaws in the conduct of elections and the organization of 
governance in general. It is not Afghan governance alone that is to 
blame. To date, much international activity and assistance has been 
misdirected and even counterproductive, often undermining rather than 
working to build up Afghan capability and sovereignty. Now that the key 
problems of governance by both Afghan leaders and their international 
partners are widely recognized, we have one final and precious 
opportunity to address the fundamental issues of how to restore Afghan 
sovereignty.
    There is now the making of a good civil-military strategy on the 
ground. It is clear that the new administration, across military and 
diplomatic arenas, recognizes the depths of the problem and has 
identified what needs to be done. The new plans emerging from the field 
articulate exactly the type of actions and approaches that have been 
sorely missing to date to achieve stabilization. The type of 
initiatives that the Bonn team never saw resourced in 2001 to 2005 are 
now finally being supported. Realizing their objectives now requires a 
clear step-by-step plan for operationalizing these goals, and making a 
set of realistic targets clear to Congress and the American public.
    Recognizing that development and governance are key foci means 
almost a reversal of what we have done in previous years. Whereas our 
large civilian institutions have been geared toward replacing native 
capacity, they now must be turned toward building it; the civilian 
actors require the same internal reflections and overhaul of 
instruments and policies that the military has undertaken, having 
arrived at the reformed counterinsurgency doctrines through much loss 
of life and treasure. I will focus on what standards of governance and 
development are realistic to aim for, the mistakes that we must learn 
from, and some suggestions for moving forward.
    There has been much discussion about what will qualify as the 
United States reaching its strategic objectives. Denying al-Qaeda 
sanctuaries is a clear goal, but the question of how that is done 
remains. To do so will require an Afghan Government that is functional 
and legitimate enough to be able to hold the country together as the 
United States drawsdown, as it eventually must. I propose as a starting 
point, that a criterion for success could be that momentum is turned 
decisively against the Taliban, by use of military force, economic 
development, building of civilian institutions, and by strengthening 
the Afghan National Security Forces to the point where they can hold 
their own against the insurgents. We do not need a perfect Afghan 
Government; just one that is stable enough. Leaving behind a failing or 
failed state will certainly lead to civil war and probable eventual 
Taliban victory. Given what has happened in this last election, the 
goal of an effective Afghan state may seem a tall order, but I remain 
convinced it can be done.
    It should be stressed that billions of dollars have been wasted on 
futile and ineffective measures, and that one cannot judge state-
building in the future by what has happened in the past. Real focus on 
letting Afghans do the work of building their own future, except for 
some sputtering and inconsistently supported efforts, has only just 
begun. Stereotyping Afghans as somehow incapable of living in a modern 
state is only an excuse for our previous, misdirected policies. The 
Afghans I know are proud, practical people who, despite all their 
frustrations, are still willing to give us a chance, and certainly 
desperately wish to avoid the fate of living either under an oligarchy 
of violent drug lords or the Taliban.
             what is good enough governance in afghanistan?
    There is a much-touted myth that justice and public administration 
are an elusive dream in Afghanistan, with corruption endemic to the 
country and its people. This narrow view overlooks four factors.
    First, central to Afghan culture is an ancient appreciation of 
justice and fairness. The concept of the Circle of Justice emphasizes 
the need for a ruler to rule justly in order to raise revenue from 
citizens to pay for the army. Afghan villagers and townspeople I have 
met across the country complain bitterly about the repressive 
corruption that they insist is alien to their culture, which puts their 
families constantly at risk of kidnapping and intimidation.
    Second, through much of the 20th century, Afghanistan had a 
reasonable standard of public administration. A manual from the 1950s 
shows Afghan professionals running schools, clinics, and road and 
irrigation projects. When I traveled across Afghanistan in January 
2002, in most provinces there were functioning provincial offices, with 
trained civil servants successfully carrying out their work.
    Third, to the extent that a culture of corruption has set in, this 
was in large part a result of empowering militia commanders with 
weapons and money to pursue the jihad and then failing to bring them 
into the fold of rule of law once the Russians withdrew, resulting in a 
massive assault on the country's peace, women, and assets throughout 
the 1990s. Warlords are not the product of Afghan traditional society, 
but rather, the product of the decimation of traditional Afghan tribal 
governance through Afghanistan's role as a proxy for struggle by 
foreign powers on its soil, and, more recently, by Afghanistan having 
being abandoned once the short-term security goals were achieved.
    Between 2001 to 2004, there were a series of examples of success in 
building institutions in Afghanistan, led by Afghans in partnership 
with small teams of international experts. The word ``partnership'' 
must be emphasized, as all too often various international actors have 
simply imposed their own formulas upon Afghans. On the other hand, the 
cooperative efforts between Afghans and mentoring organizations, with 
the emphasis on empowering Afghans to take over their own future as 
soon as practicably possible, succeeded then and efforts like them can 
succeed now. These include efforts to build the Afghan National Army, 
the National Health Program, and the National Solidarity Program (NSP), 
which enabled the creation of Community Development Councils in 23,000 
villages, and which now will expand to the remaining 9,000 villages, 
many in the southeast where security and lack of funding had prevented 
the expansion of the program. Other successful reforms during the 2001 
to 2004 period included the public finance system and currency exchange 
which saw the creation and countrywide acceptance of a new currency in 
4 months, the GSM telecoms licensing which created 7 million mobile 
phones and now more than $lbn (USD) in investment, and an 
infrastructure program that laid a template for reconnecting Afghan 
markets and people internally and regionally.
                     what should we be aiming for?
    To say that Afghan governance is central to stability is not to 
argue for an impossible goal, whether Switzerland or Valhalla. Rather, 
it recognizes that the way that rule of law is enforced is critical to 
the daily lives of Afghans and whether they choose to live within, or 
challenge, the sitting authority. Naturally, our goals must be 
realistic and attainable. Choice in standards will depend on four 
factors: The type of Afghan leadership in place, the strength of U.S. 
commitment, the agreement reached with Afghan stakeholders regarding 
redlines and goals, and the choice in the toolbox employed for 
implementation. While a team of reformers might be able to achieve one 
set of goals even if the leadership is not committed to reform, there 
is the possibility of getting governance in certain areas right, 
especially if a tough approach to benchmarks and conditionalities is 
used and if the right instruments are implemented. To recognize that 
governance is central also means understanding that the most critical 
factor is not what we, as outsiders, do but how the Afghans are 
organized to govern themselves, even if financing, advice, and 
benchmarks from the United States and its allies are key.
    It is important to start discussion from an understanding of how 
the Afghan state is actually set up and how it functions. At least for 
now, Afghanistan is a unitary state, with all provinces governed 
according to the same legal framework. A provincial and district 
education or health officer reports to Kabul through the line 
ministries, not to a local governor. Many efforts now take place 
without understanding the set of Afghan laws and organizations that 
already exist. Unless and until the Afghan Constitution and legal 
framework change, efforts should work within this framework of laws and 
procedures. A ``light touch'' form of governance is possible, where 
formal structures, including line ministries, can ``mesh'' with local 
and traditional networks and social organizations. The National 
Solidarity Program, which feeds block grants to the local level from 
the center, but lets the village organize themselves how they wish, is 
one such example. Networks of traditional birth attendants, hawala 
dealers, traders, ulema and teachers can all be mobilized or partnered 
with for different tasks.
    What type of Afghan governance will permit the stabilization of the 
country and provide the foundation for allocation of troops and money 
to be drawn down? It is necessary to articulate an ``exit strategy'' to 
demonstrate to the American public that the effort is not open-ended 
and to the Afghan population that the presence is not an occupation. 
However, an exit strategy must not be conveyed as abandonment of the 
country to the Taliban and al-Qaeda. A ``transition strategy'' might be 
a more appropriate term.
    The components of appropriate governance in Afghanistan can be 
roughly characterized by five pillars. The first pillar certainly is 
the provision of security, through the operation of Afghan Security 
Forces. This will involve expanding and strengthening the Afghan 
National Army and the Afghan Police Force; reforming the National 
Directorate of Security and Afghanistan's intelligence service; and 
provision of law enforcement through courts, judges, and prisons. 
Provision of security must be embedded within a concept of rule of law 
and justice, otherwise this can lead to a repressive regime, thus 
fueling the insurgency.
    The second pillar is the creation of structures and processes to 
ensure fair and accountable decisionmaking within a framework of rule 
of law. The Constitution for Afghanistan agreed upon in 2003 provides a 
workable basis to build upon. However, much work needs to be done to 
improve the functioning of the Presidency and the Cabinet, as well as 
to ensure appropriate selection criteria for the appointments in key 
personnel including mayors, governors, and district heads. A series of 
checks and balances from Parliament and civil society, particularly 
over revenue-raising and budget allocations, are also needed.
    The third pillar is to build systems of accountability in public 
finance, across revenue and expenditure. Afghanistan will improve its 
ability to function when it can raise its own revenue and spend it 
justly and in a way that satisfies the population. Afghanistan has the 
potential for wealth, most notably with its mineral wealth documented 
in the recent U.S. Geological Survey. This, together with customs 
revenue as well as land and large taxpayer revenues would provide 
Afghanistan with revenue many times today's figures. Reaching the 
revenue potential will reduce the cost of intervention and act as a 
forcing function to grow the economy and create jobs. Currently, much 
of Afghanistan's revenue is leaking, either by not being collected or 
by being illegitimately collected. Licensing and procurement are areas 
where much corruption occurs and are areas where more robust systems of 
transparency and oversight could bring significant financial gains. 
Finally, ensuring that Afghanistan's budget resources--both from 
domestic revenue and from international donations--are well spent 
across the services the population so desperately need, is key to the 
stability and development of the country. The State Department's 
efforts to ensure more funding is spent through Afghan institutions is 
centrally important: Not only is it much more cost efficient, an Afghan 
teacher costing less than two hundredths of a foreign project worker, 
but only by using the system will it begin to function. The Afghan 
Reconstruction Trust Fund contains a set of benchmarks and transparency 
and audit requirements that make the budget function like a dual key 
system. American funds should either be channeled through this vehicle, 
or another similar mechanism should be established directly with each 
line ministry. Already ARTF, through its leverage over the Afghan 
budget, has brought about major increases in transparency in the 
Ministry of Water and Power and in the Ministry of Education.
    The fourth pillar is basic services for the Afghan population. 
Roughly, a village can reasonably expect five sets of services: 
Irrigation, that allows them to grow their crops and sustain their 
livelihoods; access to transportation (a road), to permit movement to 
the nearest town to access markets and health care; basic health and 
education; access to water for drinking, and electricity. Villages are 
capable of organizing many of these services themselves, and the 
National Solidarity Program was set up in 2002 as the vehicle to 
channel funding and technical support to the villages in order to 
support these efforts. This program allows the villages to choose, 
design and implement projects that suit their own needs. A set of 
National Programs which complement National Solidarity Program now need 
to be created and implemented--including those for agriculture, power, 
education and skills, and water. Each of these will set out a national 
framework of policy and a package of basic services for each district, 
to be implemented through the most efficient mechanism whether through 
local government, private sector or NGO. Existing National Programs 
currently function effectively, but all will need constant review and 
adjustment.
    There is often debate about whether the ``central government'' can 
carry out the services discussed and whether decentralization is 
necessary. This is a false debate. The real question is for each 
function, who needs to do what and at which level, across the five 
levels of Afghan governance--capital, province, district, municipality, 
and village. For example, in health, the capital city will monitor 
disease and provide the large specialized hospitals, but every district 
requires its own hospital and villages will need basic clinics so that 
travel times can be reduced. This is especially necessary as 
Afghanistan remains one of the most dangerous countries in the world 
for a woman to give birth, and much of this problem has its roots in 
the long distances that must be traveled. NSP can build the clinic 
building, but the Ministry of Public Health will have to provide the 
staff. Tightly coordinated ministerial actions are needed. In public 
finance, only the capital is authorized to issue money supply, but 
every province has a finance office to collect and distribute revenue. 
With National Solidarity Program, each village designs and manages its 
own project, but engineers are available at the district level and the 
accounts are kept at the capital level. In the original terminology, 
``national'' means countrywide, not confined to the capital city.
    To enable the Afghan civil service to carry out these functions, we 
will need to invest significant sums in education as this sector has 
been severely neglected. You cannot transition a handoff of governing 
authority if there is no professional class and no trained middle 
class. There is a crisis of education and training, owing to the lost 
generation of the 1980s and 1990s and the failure to invest in Afghan 
education and training post-2001. There is an urgent need for a 
properly resourced Civil Service training school, with branches across 
the country. However, if basic education only reaches to age 11, it is 
just as important to ensure that the pipeline of education from age 11 
up to professional age exists. It is just not possible to train a 
doctor, engineer or accountant without proper institutional resources. 
If sufficient skills are to be created to manage Afghanistan's civil 
service, private sector and civil society, we need an urgent inquiry 
into the degree to which Afghanistan's secondary and tertiary education 
and vocational training system is functioning and where the gaps are. I 
might mention finally that building up the ANSF, both ANP and ANA, 
requires the formation of officer classes, and so few are literate that 
this is an immediate bottleneck on our ability to put an Afghan face on 
security operations.
    Last, building the state cannot be seen as the total solution. As 
in any society, the key is the balance between the state, market, and 
civil society institutions. Significant attention is required to 
nurture Afghanistan's market institutions, to help create the space for 
the vibrant civil society and public discussion that will hold the 
government accountable, and to allow for infusions of foreign and 
domestic capital and the building of sustainable economic growth.
                      the extent of the challenge
    To express guarded optimism is not to underestimate the challenges 
in building governance. The legacy of three decades of war has left an 
entrenched set of actors and networks deeply embedded in flows of 
illicit trade. While there was considerable progress in building 
legitimacy and foundations for institutions after 2001, to such an 
extent that key powers could claim in 2005 that the country was stable 
and plan for troop withdrawals, after 2005, stability in Afghanistan 
began to decline. In 2004, a memo (the ``Cairo memo'') was discussed by 
the key ground representatives of the United States, the United 
Nations, and Afghanistan, detailing the growing factors of disorder and 
corruption in the governance arrangements that would lead to the 
revitalization of the Taliban and loss of trust of the Afghan people. 
This was primarily owing to the failure to adequately resource 
legitimate institutions. The memo documented how supporting the 
``reform team'' to continue an agenda of institution-building would 
have required an urgent financial commitment of $200m and/or 
facilitating control of two border posts and their customs revenue to 
pass to the national treasury. As support for this agenda nor funds for 
it could be found, the reform team left office in 2005, recognizing 
that the internal systems of governance would most likely begin to 
collapse.
    Back in 2002, during the preparation of Afghanistan's first post-
Bonn budget, Afghanistan required a budget of $500m for the year to be 
able to pay its 240,000 civil servants (including doctors, teachers, 
and engineers) their basic salaries of $50 per month and to cover 
essential running costs. As the Treasury was empty, assistance was 
required. Unfortunately, donors initially committed only $20 million to 
the 2002 Afghan budget, meaning that Afghanistan's leaders could never 
in the 2002-2004 period meet the basic costs of sustaining services. At 
the same time, $1.7 billion was committed to an aid system to build 
parallel organizations, which ended up employing most of the same 
doctors and teachers as drivers, assistants, and translators to operate 
small projects at significant multiples of their former salaries. While 
some additional funds were later committed to the World Bank-run Afghan 
Reconstruction Trust Fund, this was never enough to sustain basic 
governance, and the civil service atrophied.
    Rather than support the essential nationwide services and programs 
within a framework of rule of law and policy, donors launched thousands 
of small, badly coordinated projects. Billions of dollars were spent 
through the aid complex, resulting in little tangible change for most 
Afghan citizens. Their perception of aid projects was most vividly 
captured for me in a story told to me by villagers in a remote district 
of Bamiyan, who described their multimillion dollar project to provide 
wood to build homes literally going up in smoke.
    The prescriptions of the ``aid complex'' not only bypassed, but 
actively undermined Afghan capability: For example, it was the aid 
donors who forbade any investment in the Afghan budget for education or 
training over the age of 11, citing the overriding imperative of 
investing in primary education. Similarly, a $60 million provincial and 
district governance program designed to restore policing and justice 
services was turned down for funding in 2002 on the basis that 
governance was not ``poverty-reducing.''
    At the same time, regional strongmen were strengthened over the 
last 8 years. This was a way of ``solving'' the vacuum of power left by 
the exit of the Taliban, but this solution has led to the arbitrary 
exercise of authority, predation, and fantastic levels of corruption 
which, by preventing the government from functioning, have left an 
opening for every possible destabilizing element, from cartel members 
to simple criminal gangs to the Taliban and al-Qaeda. A strategy for 
negotiating with them is necessary in order to bring them within the 
rule of law through a combination of sanctions, the application of 
justice, and incentives to cooperate with legitimate state and market 
activities.
    Partly as a result of the underfunding of Afghan institutions, the 
failure to build a robust enough set of accountabilities for either the 
government or the aid system, the reempowerment of jihadi commanders to 
whom operations were farmed out, and the failure to set out a 
comprehensive water and agriculture policy to restore what the Russians 
destroyed, narcoinfluence and other forms of corruption set in at the 
heart of government institutions. This was most clearly manifested in 
the police, customs and the way that government assets were stripped, 
ranging from land and mines through to licenses for a range of the 
country's assets. It is no wonder that the two top concerns of Afghans 
all over the country are insecurity and corruption. Often they are more 
afraid of the police and the judiciary than they are of the Taliban.
                           what will it take
    The U.S. Embassy team on the ground under the leadership of 
Ambassador Eikenberry has moved rapidly to develop approaches and 
strategies to support good governance and deliver development. Under 
current plans, ministries will be held to standards with funds 
conditional upon performance, as was done successfully with 
Afghanistan's health program. Accountability systems are going into 
place. There are large-scale plans for the rapid delivery of basic 
services to cleared villages, through the National Area Based 
Development Program, which involves the cooperation of key ministries 
to get basic services down to the district level, and the National 
Solidarity Program, which gets basic means of life all the way to the 
village level. Delivery is planned in such a way that Afghans are 
actually asked what they want (and this is the most crucial change of 
all: Consultation is security) and are employed to build it. 
Participation of the populace and the building of civil society go hand 
in hand with economic aid. Employment is crucial, and the new model of 
assistance being put into place emphasizes keeping money flowing in the 
local economy, rather than exporting funds as subcontracting 
percentages to Washington and Brussels. If young Afghans have 
legitimate opportunities for employment, recruitment opportunities for 
the Taliban can be rapidly reduced. The very formation of competent 
village councils and the existence of district councils immediately 
allow opportunities for reconciliation. Once a new Afghan Government is 
in place and agreement can be reached on a roadmap for governance and 
development, it will be vital to finalize and resource these plans for 
governance and development.
    A robust plan for building the capability of the Afghan National 
Army now exists. The same type of rigorous plan needs to exist for each 
of the other key ministries, including Finance, Education, Health, 
Water, Power, Agriculture and Mining. This does not mean that the 
United States needs to resource trainers or funding for each of these. 
On the contrary, for many of these ministries, resourcing should come 
from domestic Afghan revenue and only a small number of advisers will 
be necessary. However, if governance and development is to be taken 
seriously, it is necessary for each ministry, its laws, policies, 
personnel and organizational maps to be understood. All too often in 
the past, aid planning has completely bypassed these existing 
structures and built thousands of small projects in parallel, ignoring 
for example that there is already a health or education service in 
place that requires strengthening.
    The key steps for supporting each function are first to understand 
the existing context, including the organization, and then to agree 
upon a plan for strengthening its capability with the relevant 
officials, whether through financing, technical expertise, or other 
resources. The concept of the ``National Program'' harnesses such 
inputs into actual delivery of services, so that accountability for 
outcomes is built into the system. As Afghans need to see results 
broadly, at scale, national programs allow for implementation at scale, 
rather than boutique projects that, while in certain cases desirable, 
will not have the impact in a short timeframe. This approach will allow 
for progressive ``Afghanization,'' while making resourcing dependent on 
meeting standards of accountability, transparency, and delivery. The 
face that delivers development must be Afghan, even if actual delivery 
takes place from whoever can get things done. Planning must start from 
the outset for what and how will be handed over. This means train up 
and mentor, rather than build big operations that cannot be maintained.
    Such plans for reconstruction and development can only work if the 
military provides security. Insecurity has now spread across much of 
the country and additional forces will be required to protect the 
population. Accordingly, resourcing the military plans is central to 
the success of efforts in governance and development.
    On the civilian side, changes in how aid is designed and spent are 
needed. The models of the National Health and Solidarity Programs 
should be generalized. Greater commitments to ARTF are needed, or 
adoption of a ``ministry certification scheme'' whereby funding to a 
ministry's national program can flow, dependent on certain standards 
being reached in phases. At the moment, there appears to be a greater 
focus on sending in consultants and experts, rather than focusing on 
how we can equip Afghans to make Afghan institutions self-sufficient. 
Our experience in designing national programs has shown that the most 
successful programs often involved thousands of Afghans but only a 
handful of foreign experts. It will be a considerable task for the 
United States to unite the thousands of fragmented aid agencies--many 
of which it finances--behind one coherent, rule-based, restructured 
delivery system.
    Changes are required in the way that foreign assistance is 
delivered, but also in the leadership style and policies and priorities 
of the Afghan Government. It can be debated whether governance and 
development initiatives will succeed if there is not an Afghan 
Government in place that is sufficiently committed to serving its 
citizens and building its own capability. It is certainly evident that 
the more committed and competent the government leaders are, both at 
the top, and throughout the system, the more effective development and 
governance initiatives will be. Therefore, current discussions to form 
a new Afghan administration are critical. Use of strict 
conditionalities and benchmarks can help to incentivize this new 
administration and encouraging the new administration to include 
competent and honest leaders in key positions will be fundamental to 
the ability to make core government services work. Where there are 
reformers in place, allowing them the space to formulate and execute 
their own programs, rather than substituting for them, is desirable.
    As described above, concrete plans are also required to grow the 
economy and create jobs, and to open the space for public discussion 
and civil society. Afghanistan does not have to be poor. It has an 
abundance of natural gas, lapis lazuli, copper, lime, and wonderful 
agricultural land along with some of the most plentiful water resources 
in the world. With the right system Afghanistan could become a net 
exporter of electricity. Building value chains and webs around key 
assets including agriculture, fruit and vegetable processing and 
livestock; mining and jewelry; textiles production; and urban services 
will create jobs and revenue. To support these activities, new 
instruments are required. OPIC has run a very successful program 
offering risk guarantees to investors. This program should be expanded. 
Other, similar, programs are required to provide small- and medium-
sized loans, risk guarantees and insurance. We should also look to 
using bond financing, enterprise funds and other vehicles, in 
conjunction with careful examination as to how key assets and licenses 
should be allocated. A regional perspective for investment in key 
economic assets, including water, power, transportation and trade, 
could catalyze economic growth and build incentives for political 
cooperation.
                             who does what?
    A joint civil-military plan is needed to reflect these plans. The 
plan should be in the nature of a ``sovereignty strategy'' designed to 
restore Afghan institutional capability for each key function. The 
strategy should be negotiated with the new Afghan Government, and have 
clear commitments, benchmarks and redlines for the short and medium 
term. Clear mechanisms of accountability on use of financing should be 
agreed upon, especially regarding collection of revenue, licensing, and 
procurement. Efforts should be made to ensure that the military and 
civilian components fully understand and are satisfied with each 
other's plans, and that the means to coordinate at all levels are in 
place.
    While the United States has the clear lead in the Afghanistan 
effort, choices as to how to build partnerships with other countries 
and multilateral organizations must be made. For a narrative of a 
global partnership, a U.N. mandate, as obtained in late 2001, is 
important, and can provide the basis for partnership with China, 
Russia, Japan and the gulf, each bringing important contributions. NATO 
is clearly critical to the security effort, but to avoid a West-East 
narrative, NATO's efforts should be embedded within a U.N. mandate.
    While the United Nations is clearly important for its mandate, and 
in carrying out some key tasks, its operational capability--
particularly in management and financial accountability--is very 
questionable. If it had one task to carry out over the past 2 years, it 
was to manage the recent election, and it spent more than $250m on a 
badly organized process. In my view, 80 percent of the flaws in the 
process were avoidable, with simple planning and design and these same 
flaws were evident and documented during the 2004 elections and had all 
been pointed out to the United Nations in advance in a letter to the 
Secretary General. Back in 2001, when a small team (of which I was a 
member) were preparing for the political framework and reconstruction 
process in Afghanistan, U.N. agencies claimed that they would use the 
appeals for Afghanistan to generate the funds to pay off their arrears 
from the 1990s, and much money remains unaccounted for. U.N. agencies 
still for the most part refuse to share their accounts and audits with 
their governing boards. Therefore allocating operational tasks to the 
U.N. and its agencies, especially in the area of aid coordination, 
should be done with great caution. The U.N. mandate could cover the 
international presence, but tasks will be better allocated to other 
groups best suited for each task.
    Alternative mechanisms should be found for key tasks. The Afghan 
Reconstruction Trust Fund, managed by the World Bank, is an important 
coordination mechanism that is already in place and that backs the 
Afghan budget. This mechanism ensures transparency in audit reports and 
in the review of the Afghan budget. This mechanism should be 
strengthened. An additional possible mechanism would be a World Bank/
IMF plan for accountability, which could certify accountability on a 
regular basis. Dedicated agencies could be established for two 
activities: The first, the establishment and oversight of 
reconstruction plans and activities. Such an agency existed in 
Afghanistan 2001-04, called the Afghan Assistance Coordination 
Authority, which served to design and launch the key National Programs. 
A similar entity could be established, perhaps as a Joint Commission 
between the United States and Afghanistan. PRTs could then report to 
such a structure. Another entity dedicated to planning and supervising 
education could be established to train and mentor Afghans across its 
civilian institutions.
    A strategy for Afghan civilian institutions could be, but does not 
necessarily need to be driven by foreign civilian actors: The important 
factor is that there is a plan. A mistake in logic is often to assume 
that because Afghans need a functioning polity, government and 
institutions, it is going to be foreign aid bureaucracies that will 
deliver this to them. This is a fatal flaw in logic as these 
organizations themselves are broken and often make the situation worse. 
A clear strategy and process for rebuilding legitimate Afghan 
governance, regardless of who delivers it, is required. From there, 
functions and tasks can be allocated to different actors.
                               conclusion
    Getting Afghanistan right rests fundamentally on establishing good 
enough governance. Gearing the international presence to partner with 
Afghans in their attempt to stabilize their country through reclaiming 
their sovereignty, only for as long as this is required, will reset the 
partnership and lay the basis for exit of the United States and its 
allies. Now is the time to finalize such a plan, set benchmarks for its 
realization, and ensure it is resourced and supported to enable its 
implementation.

    The Chairman. Thank you, Ms. Lockhart. An important point 
of view, and I'm confident people will want to follow up on it.
    Dr. Hosseini, again, thank you very, very much for being 
with us and sharing your very important and, you know, on-the-
ground vision here. We appreciate it.

[Business meeting takes place from 10:04 a.m. to 10:06 a.m.]

  STATEMENT OF KHALED HOSSEINI, U.S. ENVOY FOR THE U.N. HIGH 
        COMMISSIONER FOR REFUGEES (UNHCR), SAN JOSE, CA

    Dr. Hosseini. Thank you, Mr. Chairman, members of the 
committee.
    On behalf of the Office of the United Nations High 
Commissioner for Refugees, I would like to express my 
appreciation for this opportunity to appear before you and to 
offer my perspectives and concerns on the Afghan refugee 
situation and the overall conditions in Afghanistan.
    In the way of background, UNHCR currently has 12 offices 
inside Afghanistan, and it's had a presence in Afghanistan 
since the late 1980s, and maintained an office in Afghanistan 
during the Taliban rule in the 1990s. At the peak of the Afghan 
displacement crisis in the mid-1990s, some 8 million Afghans 
fled home and went to neighboring Pakistan and Iran. And after 
the fall of the Taliban in 2001, UNHCR began the largest 
repatriation operation in the history of the agency, 
repatriating, since 2002, some 5 million Afghans. UNHCR also 
has offices in Iran and Pakistan, through which it assists some 
2.6 million Afghan refugees who have yet to return home.
    I came back yesterday from a 5-day trip to Afghanistan, 
where I met with ordinary Afghans, where I met with refugees, 
displaced people, aid workers, and officials. And I will focus 
my comments today first on the needs of the Afghan refugees, 
particularly those who have recently returned to Afghanistan 
from neighboring countries, and then on the needs of the Afghan 
people, in general.
    On the issue of refugees, some have reintegrated 
successfully and have resumed relatively settled lives. But 
many that I met continue to struggle. It has been a major 
challenge, to say the least, for many returnees to restart 
their lives in a country where basic services have collapsed. 
Some of the returnees that I met last week lived in squalid, 
abandoned public buildings or in tents or on government land in 
dry, remote, and inaccessible areas. They complained to me of 
the lack of basic services, like water, food, schools, clinics, 
and, most importantly, jobs. Some had a great fear of the 
coming winter.
    Given these difficult realities, maybe it's not surprising 
that 2.6 million Afghans still live in exile in Iran and 
Pakistan. Eighty percent of them have lived there for more than 
two decades, and half of them were born there. And after 30 
years of living in exile, and giving the difficult conditions 
inside Afghanistan and the state's low absorption capacity, 
many of them may not wish to ever come home.
    It is important, however, that return and reintegration be 
made as attractive as possible to Afghan refugees. And for that 
to happen, existing conditions inside Afghanistan have to be 
remedied so the environment within the country is more 
conducive to the social and economic well-being of refugees. 
That means Afghan authorities, in partnership with the 
international community, have to work on critical pull-factors 
like security, employment opportunity, access to land, water, 
shelter, education, and health facilities, in order for 
repatriation to become a more attractive option, and for 
refugees to become self-sufficient and reintegrate 
successfully. The needs of returning refugees and IDPs have to 
be included in national programs.
    UNHCR can help, but its expertise lies in emergency 
response and in legal, physical, and material protection. As 
part of the initial reintegration process, UNHCR provides 
shelter, water, transport and family grants. But, returning 
refugees need more. They need security, they need stability, 
they need economic and social opportunities. And though UNHCR 
can certainly act as a partner and as an advocate for these 
needs, it cannot provide them, and it has to rely on 
reconstruction and development partners to create the 
socioeconomic conditions and opportunities that are required 
for durable return. And so, to that end, donor support and 
continuing engagement of the international community is 
indispensable.
    On a broader front, let me say that Afghanistan has been in 
a state of conflict for almost 30 years. The country and its 
population made huge sacrifices during the Soviet occupation. 
Every family that I met and that I spoke to had been touched by 
tragedy, tragedy on a scale that few of us here can imagine.
    Many Afghans believe that the final and violent chapter of 
the cold war was inked with their blood. Today, my impression 
is that Afghanistan faces yet another critical and pivotal 
moment in its recent unstable history. I believe there's an 
opportunity in Afghanistan--an opportunity to build on the 
progresses that have been made since 2002. And despite the 
sobering realities, we shouldn't lose sight of the fact that 
there has been progress. For instance, 6 million children are 
enrolled in some 9,000 schools around the country. Afghans have 
greater access to the health sector. Millions of kids have been 
vaccinated. Commerce and enterprise inside Kabul are 
appreciably increased. Infrastructure is booming. And 
technology, especially telecommunication, appears poised to 
leapfrog Afghan business development. There's free press and 
greater personal freedom.
    But, progress hasn't been fast enough or deep enough, and 
all of us would like to see it reach more Afghans. And there 
are many challenges that can undermine the progress that we 
have seen. The decline in refugee repatriation this year, for 
instance, is an indicator that security remains a major 
obstacle, and that the economy has not grown quickly enough, 
especially in rural areas. Afghanistan remains one of the 
poorest countries in the world. Poverty, in fact, is the No. 1 
killer in Afghanistan. Average life expectancy is one of the 
lowest in the world. Twenty-five-thousand-plus women die every 
year during childbirth. That's more deaths than those caused by 
all the suicide bombs, IEDs, and airstrikes combined. And 
though, historically, there is no tradition of extremism in 
Afghanistan, poverty can make people--especially unemployed, 
aimless, young people--more vulnerable to exploitation by 
extremist groups.
    Military intervention is an important part of 
counterinsurgency, but it's only part of it. Counterinsurgency 
has to include social and economic intervention, as well. When 
people have a roof over their head, food on the table, and a 
school to send their kids to, they're less likely to be 
influenced by extremist forces.
    These are huge challenges to be addressed, and they 
shouldn't be minimized. During my visit, all the Afghans that I 
encountered expressed their concerns about the future and some 
disappointment about the present. They clearly expected more 
from their government, but none of them wanted to go back to 
the past. And I see no reason why we should allow ourselves to 
be defeatists and let the country slide back toward its 
troubled past. The Afghan people don't want the moon, and we 
should secure the modest levels of improvements in people's 
lives that will earn us such good will and make such a 
difference in Afghanistan's stability.
    There are opportunities to be seized, then, if all parties 
accept the responsibilities. That begins, first and foremost, 
with the Afghans themselves. They have to do their part. This 
is their country, after all. Afghan leaders have to acknowledge 
that their people expect more from them, and rightfully so. 
They have to restore people's faith in governmental 
institutions.
    But, I stress this, that the international community, for 
its part, must maintain its continued support for the Afghan 
people, and it has to be patient. I'm aware of the current 
debate in this country about the Afghan war, and I feel deep 
empathy for the families who have lost loved ones in 
Afghanistan. I know I speak for most Afghans when I say how 
grateful Afghans are for their service and sacrifice. And 
contrary to what some have said, Afghans are not an ungrateful 
people. But, let's not let the sacrifices of our 
servicepeople--men and women--be in vain. Let's be patient. 
Let's consider that no country in history has been able to 
establish a functioning state, a performing government, a 
strong economy, and a stable society in just a handful of 
years.
    Afghans are a proud people, and they don't want to be a 
source of regional and international instability. They don't 
want to be known for producing refugees and economic migrants 
around the world. They want no more and no less than other 
people in developing countries want for their children and 
themselves. If the basic essentials can be provided--housing, 
education, and health care--I truly believe that this closure 
can be brought to this dark chapter of the country's recent 
history.
    Mr. Chairman, I again appreciate the opportunity to testify 
before you, and I'm happy to answer any questions that you or 
other members of the committee may have.
    Thank you very much.
    [The prepared statement of Dr. Hosseini follows:]

 Prepared Statement of Dr. Khaled Hosseini, U.S. Envoy for UNHCR, San 
                                Jose, CA

                              introduction
    Mr. Chairman and members of the committee, on behalf of the Office 
of the United Nations High Commissioner for Refugees (UNHCR) I would 
like to express our appreciation for the opportunity to appear before 
you today to offer our perspectives and concerns regarding the Afghan 
refugee situation.
    My name is Khaled Hosseini, and I am the U.S. Envoy for UNHCR, a 
position that I have held since 2006.
    UNHCR currently has 12 offices inside Afghanistan. It has been 
working inside Afghanistan since 1989 to support the return and 
integration of Afghan refugees. Since 2002, more than 5 million Afghans 
have returned to their homeland, including more than 4 million with 
UNHCR's support. UNHCR also has offices in Pakistan and Iran, through 
which we continue to assist some 2.6 million Afghan refugees.
    I returned yesterday from a 5-day trip to Afghanistan, where I met 
with returned refugees, ordinary Afghans, aid workers, and officials. I 
will focus my comments today first on the needs of Afghan refugees, 
particularly those who have recently returned to Afghanistan from 
neighboring countries, and on the needs of the Afghan people in 
general.
    In a nutshell, my impression is that Afghanistan faces yet another 
pivotal moment in its recent, unstable history. There is an opportunity 
to consolidate the clear progress that has been made since 2002 in a 
number of areas--education, health, energy, trade, communications, and 
construction. Progress in these sectors has assisted one of the largest 
repatriation movements in history.
    No country in history has been able to establish a functioning 
state, a performing government, a strong economy, and a stable society 
in just a few years. After the level of conflict that a poor country 
like Afghanistan has suffered for three decades, we should not be 
surprised that recovery and development will take some time.
    To address these issues, my strongest recommendation is that the 
international community maintain its continued support for the Afghan 
people. During my visit, all the Afghans that I encountered expressed 
their concern about the future and some disappointment about the 
present. They clearly expected more from their government and more from 
the international community. But none of them wanted to go back to the 
past. And I see no reason why we should allow ourselves to become 
defeatists and let the country slide back toward the past. I see no 
reason why we cannot secure the modest level of improvement in people's 
lives that would earn us some good will and make such a difference to 
Afghanistan's stability.
    In my judgment, the international community--not just the U.S. 
Government--must press the Afghan Government to demonstrate greater 
commitment to improving the lives of its citizens. But we, the 
international community, must also hold ourselves accountable. Could we 
have organized ourselves more coherently? Could we have worked more 
cost-effectively? Could we have prioritized our support more logically 
to address the most pressing needs? I believe the answer to all these 
questions is ``Yes.'' I am nevertheless convinced that the challenges 
Afghanistan faces can be overcome, difficult though they may sometimes 
appear.
                               background
    UNHCR is charged by the international community with ensuring 
refugee protection and identifying durable solutions to refugee 
situations. The agency's mandate is grounded in the 1951 Convention 
Relating to the Status of Refugees and its 1967 Protocol (hereinafter 
``the Refugee Convention''), which define a refugee as a person having 
a well-founded fear of persecution for reasons of race, religion, 
nationality, political opinion, or membership in a particular social 
group.
    UNHCR has had a presence in Afghanistan since the late 1980s and 
maintained an office during the Taliban rule in the 1990s. At the peak 
of the Afghan displacement crisis in the mid-1990s, some 8 million 
refugees had fled their homes to neighboring Pakistan and Iran. After 
the fall of the Taliban in 2001, UNHCR began the largest repatriation 
operation in the history of the agency. Since 2002, UNHCR has 
repatriated more than 5 million Afghans. Despite such a large number of 
returns, approximately 1.5 million Afghans remain in Pakistan and 
approximately 1 million in Iran. In recent years, there has been a 
decline in returns, which peaked in 2006. Security remains of great 
concern to Afghans residing in the surrounding region, and surveys 
demonstrate that the major additional challenges to return are 
primarily social and economic in nature.
                            unhcr activities
    Upon returning to Afghanistan, families face difficulties 
establishing a new home and securing employment. The single most 
pressing need of the returnees is shelter. UNHCR has established a 
shelter program in Afghanistan in close cooperation with the Afghan 
Government. Since 2002, we have built close to 200,000 houses for 
returning refugee families in rural areas. The government's own 
National Land Allocation Scheme offers the potential to assist landless 
returnees who so far have not been able to benefit from UNHCR's shelter 
program. To date, more than 300,000 plots of government land have been 
identified in 29 provinces.
    UNHCR focuses its efforts in helping the Government of Afghanistan 
and local communities develop strategies to address the reasons for 
displacement. In addition, the office assists the government in 
strengthening its capacity to plan, manage and assist the return, 
reintegration, and protection of refugees and internally displaced 
persons (IDPs).
    UNHCR also provides protection and assistance to IDPs. The 
displacement situation inside Afghanistan is highly complex, with 
factors such as insecurity, economic hardship, and cultural traditions 
providing a backdrop. In 2008, more than 235,000 IDPs were identified 
throughout the country. The majority of these individuals were 
displaced due to protracted conflict, poverty, and livelihood failure 
in the southern region of Afghanistan.
    Any refugee or IDP return and reintegration operation is a complex 
process. Afghanistan's is perhaps the most challenging of all. It was 
clear on this recent visit that security and employment are the most 
essential requirements. It was also evident, however, that resolving 
land and property issues in rural areas is assuming greater importance 
as enlarged families return to their places of origin.
    After 6 years of some of the highest levels of return ever achieved 
by a UNHCR operation, signs of limited absorption capacity were 
apparent. As such, continued high levels are unlikely until greater 
security allows a more stable government and a more vibrant economy to 
take root. Overloading the fragile reintegration conditions would be 
counterproductive and could generate internal displacement and even out 
migration. It will require the coordinated interventions of assistance 
actors and government authorities to build greater absorption capacity 
in the future.
                    observations and recommendations
    Although I met with some refugees who have reintegrated 
successfully and have resumed relatively settled lives, many continue 
to struggle. It has been a major challenge for many returnees to 
restart their lives in a country where basic services have collapsed. 
The returnees that I met lived in squalid, abandoned public buildings 
or in tents, or on government land in dry, inaccessible areas. They 
complained to me of the lack of basic services like water, food, 
schools, clinics, and jobs. They had a great fear of the coming winter. 
This isn't entirely surprising. Afghanistan's population increased by 
20 percent in a mere 6 years. This would be a huge challenge for any 
country, even a developed one. For a poor nation like Afghanistan, 
decimated by 30 years of war, this is an absolutely enormous figure. 
Given these difficult realities, maybe it's not surprising that 2.6 
million Afghans still live in exile in Iran and Pakistan. Eighty 
percent of them have lived there for more than two decades, and nearly 
half of them were born there. After 30 years of exile, and given the 
difficult conditions inside Afghanistan and the state's decreased 
absorption capacity, many of them may not wish to return home.
    It is important, however, that return and reintegration is made as 
attractive as possible. For that to happen, existing conditions inside 
Afghanistan have to be remedied, so that the environment within the 
country is more conducive to the social and economic well-being of 
refugees. That means that Afghan authorities and the international 
community have to work on critical pull factors like security, 
employment opportunities, and access to land, water, shelter, 
education, and health facilities, in order for repatriation to become 
an attractive option and for refugees to become self-sufficient and 
reintegrate successfully. The needs of returning refugees and IDPs have 
to be included in national programs.
    It is also important that UNHCR continue to view repatriation and 
reintegration as an important and achievable solution for as many 
Afghans as possible who wish to return. This will have the additional 
virtue of addressing the concerns expressed by the neighboring asylum 
countries that repatriation receives insufficient support.
    To that end, it is essential that both the Afghan authorities and 
the international community provide both political and financial 
support to Afghanistan's National Development Strategy for the return 
and reintegration of refugees and IDPs.
    UNHCR's expertise lies in emergency response and legal, physical, 
and material protection. Returning refugees also need security, 
stability, economic, and social opportunities. UNHCR can act as the 
advocate for these needs. However, beyond the initial reintegration 
assistance that UNHCR provides in shelter, water, transport and family 
grants, we depend very much on our reconstruction and development 
partners to create the socioeconomic conditions and opportunities 
required to sustain return. To that end, donor support and the 
continued engagement of the international community and the Government 
of Afghanistan will be critical to sustaining refugee repatriation in 
the years to come.
    I believe there is an opportunity to build on the progress that has 
been made since 2002. And despite the stream of negative news, we 
should not lose sight of the fact that there has indeed been progress, 
in a number of areas. For instance, over 6 million children are 
enrolled in some 9,000 schools around the country. Afghans have greater 
access now to the health sector; millions of children have been 
vaccinated against preventable illnesses. Commerce and enterprise are 
appreciably increased. Infrastructure is booming in cities like Kabul, 
and technology, particularly telecommunications and wireless 
technology, appear poised to leapfrog business development in 
Afghanistan. There is free press and greater personal freedom.
    But progress has not been as fast and as deep as all of us here 
would like, and it has not reached as many people as we would like. And 
there are many challenges that can undermine the progress that we have 
seen. The decline in refugee repatriation this year, for instance, is 
an indicator that security remains an obstacle and that the economy has 
not grown quickly enough, especially in rural areas. Afghanistan 
remains one of the poorest countries in the world. Poverty is in fact 
the No. 1 killer in Afghanistan. More than 25,000 women die during 
childbirth every year. That's more deaths than those caused by all the 
suicide bombs, IED attacks, and air strikes combined. And although 
historically there is no tradition of extremism in Afghanistan, poverty 
can make people, especially young people, more vulnerable to 
exploitation by extremist groups. It has been stated many times that 
improved security alone will not end the insurgency. Investment in the 
political, economic, social, and cultural spheres is also necessary.
    There are opportunities that can be seized if all parties accept 
their responsibilities. The Afghans, certainly, have to do their part. 
This is their country after all. Afghan leaders have to acknowledge 
that their people expect more of them, and rightfully so. They have to 
restore the people's faith in the state institutions, and demonstrate 
leadership, vision, and a greater commitment to improving the lives of 
the population. For its part, the international community will need to 
organize its assistance more coherently around commonly agreed 
objectives.
                               conclusion
    Afghanistan has been in a state of conflict for almost three 
decades now. The country and its population made huge sacrifices during 
the Soviet occupation. Almost every family has been touched by tragedy 
on a scale that few of us can imagine. Many Afghans believe that the 
final violent chapter of the cold war was inked with their blood.
    Yes, Afghans do not want to be a source of regional and 
international instability. They do not want to be known for producing 
refugees and economic migrants around the world. They want no more and 
no less than other people in developing countries want for themselves 
and their children. If the basic essentials can be provided--housing, 
education, health care, and job opportunities--I sincerely believe that 
a new chapter of hope and happiness can be brought to the Afghan 
people.

    The Chairman. Well, thank you very much.
    And thank you, all of you, for helping to set the stage. 
There are a lot of questions that flow out of your testimonies, 
and I'm confident that colleagues here will pursue them.
    What's interesting to me is--I was sitting here thinking--I 
was listening to your testimony, Dr. Hosseini, and to you, Ms. 
Lockhart--both of you describing, obviously, an urgent 
humanitarian need, an urgent challenge, in terms of nation-
building--state-building--the challenge of governance. On the 
other hand, we've had troops on the ground and we have been in 
Afghanistan for 8 years now--we're nearing the 8-year 
anniversary right now--and the test for us, in terms of 
policy--I mean, if you took away the al-Qaeda, and you took 
away the attacks, then there would be a challenge to us as to 
what our foreign policy aid program ought to be and what the 
levels of assistance we might give are. But, right now, our 
challenge is also to try to figure out what the level of 
military involvement--troop involvement--ought to be; indeed, 
what our security interests are, and how they can be furthered 
with respect to Afghanistan.
    The President of the United States has defined the mission 
in a more limited fashion, really, by saying that our goal is 
to take on al-Qaeda, dismantle them and/or eliminate them, and 
to prevent them from having a safe haven and a sanctuary from 
which they can attack the United States, and to prevent the 
destabilization of Pakistan, where we have an even larger and 
more vital interest.
    So, the test for us, here, as we think about our policy, 
going forward--and we need to ask you questions about the 
nation-building and the relationship of it to those interests--
but, the key here is really to try to hone in, I think, on 
those interests, and how we best serve them.
    One of the essential questions we need to get at--I think, 
Ambassador Crocker, you can, perhaps, help us do that--is, sort 
of, you know, while you were there for a period of time, the 
Pakistanis proved themselves capable of living pretty 
comfortably, with a pretty awful Taliban regime. It didn't end 
Pakistan's capacity to govern, it didn't threaten them 
existentially. Now, today that's changed a little bit, 
obviously, because of the Haqqani network, the Baitullah Mehsud 
network, the presence of al-Qaeda, and other things. But, the 
question for us--and I want to ask you to begin here--is--help 
us to understand--define for us what the real impact of the 
Taliban is today, and might be, on the stability of Pakistan. 
And would it, in fact, be an existential challenge to them if 
the Taliban took over in Afghanistan today?
    Ambassador Crocker. Thank you Mr. Chairman. That is, 
indeed, a key question. And, as you rightly point out, we've 
seen an evolution. During the 1990s, Pakistan did, indeed, work 
out a modus vivendi with a Taliban-led government in 
Afghanistan, and had relative stability at home. But, that has 
changed. We have seen the evidence--you pointed to the Haqqani 
network, the efforts of the now late Baitullah Mehsud, the 
developments in the Swat Valley. We have seen an increasing 
militancy within Pakistan, not restricted just to the border 
areas, that is growing to the point where, for many Pakistanis, 
it does raise at least the question of an existential threat.
    Now, I think there are other questions in Pakistan--again, 
about our staying power--that still cause some hedging of bets 
there. The ultimate nightmare in Pakistan would be to see us 
once again decide we're done--we're done in Afghanistan and 
we're done in Pakistan, a repeat of the 1990s--leaving them 
with what, by that point, may be a truly dangerous enemy. So--
--
    The Chairman. Let me--can I just interrupt you for a moment 
there? I don't think--I mean, let me make it clear, from my 
point of view, Senator Lugar's point of view--I think, the 
committee--there's no talk, here, and there is--I don't want 
anybody even beginning to think that there is a contemplation 
of not being committed to Pakistan, or of understanding the 
challenge of Pakistan. And there--the legislation we passed, 
which you referred to, states that commitment, and we 
understand the importance of Pakistan. There's no talk of 
diminishing that.
    What the question really begs is this, To what degree is 
Afghanistan, in fact, left to its own devices or with a lesser 
footprint, at jeopardy? Are our interests, in fact, challenged 
if we had a different approach to Afghanistan?
    Ambassador Crocker. I think they would be challenged. 
Simply put, Mr. Chairman, I see reciprocity, here. I don't 
think long-term stability can be brought to Afghanistan without 
Pakistan also stabilizing. But, the reverse is also true. I 
don't think that Pakistan can face up to the challenges of 
militancy--not just on its western borders, but in the center 
of the country--if that militancy succeeds in Afghanistan. We 
all know the history of the Durand Line, its porosity, its 
artificial nature. There are more Pashtuns in Pakistan than 
there are in Afghanistan. So, a militant ascendency in 
Afghanistan, I think, will be severely destabilizing for 
Pakistan.
    The Chairman. And is there any degree--yesterday it was 
suggested by Rory Stewart that perhaps the presence of troops 
and the manner of the mission in Afghanistan is, to some 
degree, destabilizing Pakistan, that it's adding to the 
capacity--coupled with the corruption of the governance, it's 
adding to this ability of the Taliban to, kind of, you know, 
find recruits and make mischief.
    Ambassador Crocker. My experience is now somewhat dated. I 
left Pakistan in 2007. But, as of that time, I knew of no 
senior Pakistani figure, military or civilian, who was 
advocating a United States withdrawal from Afghanistan. There 
was lots of criticism over how well we were prosecuting the 
mission, but it was taken as a given--it--in my contacts 
there--that that mission needed to be prosecuted; perhaps in 
better or different ways, but that we needed to stay engaged 
there.
    The Chairman. Well, I'm not suggesting--I mean, I think, 
just a plain old withdrawal would be disastrous on any number 
of different fronts. I think what we're trying to figure out is 
how to accomplish the mission, what level of mix of military 
and governance improvement and nation-building, et cetera, is 
appropriate. I think some people are very fearful that right 
now there's sort of this nondescript, you know, loosey-goosey, 
``We've got to do this here and do this here and build this, 
and we're going to train the military, and we're going to do 
this and that,'' and--we heard, yesterday, that to properly 
effect a counterinsurgency--which has grown--I mean, the 
Taliban are now in control of 37 percent of country; whereas, a 
year ago, they were in control of 20-something percent. And 
that growth, you know, has to make you pause and say, ``OK, you 
know the western part, the northern part haven't yet reached 
it,'' but we heard fears expressed that that may happen. 
Therefore, to be successful, you have to begin to think about 
what's the real troop ratio that you need to provide the 
security for adequate counterinsurgency. And counterinsurgency, 
we heard yesterday, is a distinctly different mission from 
counterterrorism.
    The mission, as I understood it from the President, was 
more counterterrorism in Afghanistan and stabilization with 
respect to Pakistan. So, we've got to figure out if we're, sort 
of--you know, is there a--automatic and unavoidable mission 
creep, here? Or is there an inadvertent mission creep, here? Or 
is there something in our automatic response to how we protect 
Pakistan that requires us to, you know, sort of feel that you 
have to do the counterinsurgency? That's the--I think the 
biggest tension here is, What level of counterinsurgency do you 
need to support the counterterrorism effort and the 
destabilization piece? And we need to, you know, kind of, 
obviously, pursue it further.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    I just want to explore this thought the chairman has 
mentioned, which came up in our hearing yesterday, that--
essentially, as one witness said, the major reason why we ought 
to have stability in Afghanistan is to help perpetuate 
stability in Pakistan, that one reason for having troops in 
Afghanistan is simply because Pakistan has nuclear weapons. In 
the event of the disintegration of governance in Pakistan, 
various factions might take hold of the weapons. The threat of 
al-Qaeda, or whatever the group it may be, gaining control of 
warheads or other instruments that change the situation a great 
deal is more harrowing than anything we've discussed.
    Now, this is sort of a change in context from most of our 
discussions of Afghanistan. Of course, we've looked at 
Afghanistan in terms of how villages could become more 
sufficient, how agriculture yields might rise, how drug abuse 
might be curtailed; in essence, how more children could go to 
school and how women's rights would be fostered. This is the 
nature of the sort of discussion we've been having. The notion 
that Afghanistan is important strategically to the United 
States because of Pakistan is a different twist.
    Furthermore, there have been discussions in the press--even 
in today's press that the stability in Afghanistan may be 
threatened if the people do not accept President Karzai as 
their leader. It's not farfetched, some would say, that, given 
that next door in Iran, people continue to take to the streets 
to protest the results of the June 12, 2009, elections. There 
is a situation in which, even with our government, we want to 
have dialogue with Iran, as you've suggested, but the question 
remains as to with whom it should be conducted. Furthermore, if 
we reach an agreement, are the internal conditions there stable 
enough to ensure it is implemented given the situation I've 
described?
    What I want, I suppose, from each of you is some idea of 
the stability of potential governance at the highest levels, 
quite apart from the regional levels and so forth, in 
Afghanistan? And what would it mean for this stability in the 
event of, as the Europeans are quoted in the press today as 
saying, a third of the votes for President Karzai possibly 
being invalid? That is a very significant charge, and it 
suggests that the ballots that we heard, yesterday, that have 
been prepared for a runoff, might be used. But, then others 
say, ``Well, no, you don't understand. The weather gets bad. 
The difficulties of conducting a November election in 
Afghanistan are not the same as they are in the United 
States.'' And furthermore, the whole thing might get shifted 
into next year, which would lead to continued discussion about 
stability in Afghanistan, when we were originally talking about 
how Afghanistan helps Pakistan remain stable.
    Now, finally, in preface, people are saying Pakistan, all 
things considered, has been pretty stable this past year. 
Despite the predictions that President Zardari might have grave 
difficulties after 3 months, he seems to be sailing along. 
However, we may have to worry much more about stability in 
Afghanistan. So, no wonder, perhaps the President says, ``OK, 
we'd better hang on for a while before we get into a 
recommendation of troop levels, and a national debate with the 
public opinion in this country that seems to have a different 
timeline.'' And what I'm wondering is if we're not kicking the 
can down the road, even in our decisionmaking. I did not want 
to be hypercritical in my opening statement, but I just 
observed that General McChrystal's report always seems to be 
there. We going to discuss and discuss and discuss it, and 
digest it, and all sorts of people are going to look at it, and 
so forth, and then suddenly we come along, after an indefinite 
period, and begin to talk about troop levels.
    Now, does anyone have any comment? General Craddock, do you 
have any thoughts about these ruminants that I have suggested?
    General Craddock. Well, thank you, Senator Lugar.
    Indeed, it's a bit of a conundrum; there's no doubt. I 
think Senator Kerry's opening comments, ``This is not winnable 
by military means,'' absolutely; I have said that for the past 
several years. The military--the security effort will set the 
conditions, then, for good-enough governance, as Clare Lockhart 
said, for investment, for development, for the creation of 
jobs.
    As you go about the country--and I also have gone about--
it's about clean water, education, a job, electricity. How hard 
can that be? Obviously, it takes some security to do that.
    I think, from the security perspective--and this is, again, 
a NATO perspective--security and stability--there are two 
fundamental issues there. One is the funding the insurgency, 
whether it be the Taliban, HIG, Haqqani, whatever the case may 
be. And that's largely--and has been largely; it's down 
somewhat--from the narcotics business, and it has to be 
addressed, and it continue to be addressed, and we have to take 
away the wherewithal, the contributions, from that, after the 
value is added, and that's in the processing from the raw opium 
paste into the heroin, and that's why the facilities are so 
important to be attacked.
    Senator Lugar. General, let me interrupt that point, 
because many would allege that, in addition to the insurgents 
getting the money, the government is getting the money, that 
the----
    General Craddock. Yes, sir.
    Senator Lugar [continuing]. There are two great recipients.
    General Craddock. And that--that's in my opening statement, 
and indeed, it fuels the corruption. Now, I know the numbers 
are down. Right now, the latest estimates--a $3 billion 
industry, of which some $1 billion stays in country and $200 to 
$300 million to the insurgents. Where does the rest go? 
Corruption. Private and public. Has to be addressed.
    But, the security will only create the conditions, then, 
for what Rory Stewart says the Afghan people are morally bound 
to do for themselves, which is govern better.
    Senator Lugar. So, that's the basis for our security, then, 
to give----
    General Craddock [continuing]. It is. We----
    Senator Lugar [continuing]. A framework for Afghan people 
to progress.
    General Craddock. I think it is protect the people, put an 
umbrella--a security umbrella around the municipalities, around 
the villages and towns, so that there can be investment, 
development, jobs created. And when the people get that, they 
will push the insurgents out.
    Senator Lugar. Well, my time is completed, but I appreciate 
that answer.
    The Chairman. Thank you, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thanks, Mr. Chairman, for holding all 
these hearings on one of the most important questions facing 
our Nation at this time, and we're honored to have all these 
distinguished witnesses here.
    These hearings have contributed to a much-needed debate 
regarding our efforts in Afghanistan. And while there may be 
disagreement on some issues, one point of consensus that has 
clearly emerged, and that the chairman just restated, is that 
no one thinks we should abandon Afghanistan. The United States 
must remain engaged in helping the Afghan people resolve the 
many difficult issues facing their country, through diplomatic 
means and through ongoing assistance.
    However, I do believe that we need to examine whether the 
current military strategy may potentially be counterproductive. 
I'm concerned that our massive military presence may be 
contributing to instability in the region, and could be 
unwittingly undermining our chief national security priority, 
which is, of course, relentlessly pursing al-Qaeda's global 
network.
    Helping the Afghan people build a stable nation for 
themselves is an important long-term goal. We must consider how 
best to achieve this and whether this requires a departure from 
our current, overly military-centered approach.
    Ambassador Crocker, Admiral Mullen, and Special Envoy 
Holbrooke have acknowledged at these hearings that there is a 
danger that U.S. military operations in Afghanistan could drive 
militants into Pakistan and further destabilize that nuclear-
armed country. And the DNI--Admiral Blair--has testified that, 
``no improvement in Afghanistan is possible without Pakistan 
taking control of its border areas and improving governance, 
creating economic and educational opportunities throughout the 
country.'' Do you agree that the key to preventing the spread 
of militancy in the Afghan-Pakistan border region is improved 
governance and effective counterterrorism in Pakistan, as 
opposed to our military operations in Afghanistan?
    Ambassador Crocker. Senator, I would certainly join General 
Craddock--and, I think, most of the members--in the strong view 
that there is no purely military solution to problems in 
Afghanistan, or, indeed, in Pakistan. There is a military 
component to a broader solution. The military--and I apologize 
for treading in General Craddock's area--talks about ``troops 
to task.'' Defining the task, I think, is absolutely essential 
at this point. And again, Mr. Chairman, I commend the committee 
for its focus on this. What is it that we believe needs to be 
done to bring, as Ms. Lockhart puts it so well, good-enough 
governance to Afghanistan or to allow the Afghans that 
opportunity? That is where long-term stability will lie. The 
military then becomes a component of that. We need to define 
our goals, our end states, the milestones along the road to
that end state, if you will, and then--but, I think, only 
then--can we really talk in a coherent way about force levels 
and force composition.
    Senator Feingold. Thank you, sir.
    Dr. Hosseini, recent polls have shown the majority of 
Afghans oppose an increase in U.S. troops. Do you think there's 
a danger that our disregard for this preference could provoke 
more militancy?
    Dr. Hosseini. I think there's no question that there's a 
shade of public opinion in Afghanistan that is beginning to see 
the security forces in Afghanistan as an occupation. My sense 
is that, compared to a few years ago, there are more people now 
who view the security forces in a negative light. And the 
civilian casualties have a very, very significant impact on 
that public opinion.
    That said, on balance, I think most Afghans know that if 
the security forces were to leave, things would be a whole lot 
worse. And this is because they understand that the Afghan 
institutions and the Afghan security forces are not strong 
enough to assure the country and its people of a normal, or 
even seminormal, state of existence. At the end of the day, you 
know, any state has to exercise a monopoly over the legitimate 
use of force in the greater interest of the civilians at large. 
And the Afghan state, at this point, is not in the position to 
do that.
    So, do the Afghans want foreign troops on their land? No. I 
mean, they really would prefer that there not be. They're, you 
know, independent, sovereign people. But, do they see it as a 
necessary thing still today? I think most Afghans would concede 
that point.
    Senator Feingold. But, as to the question of an increase in 
troops?
    Dr. Hosseini. I think, when you speak to Afghans on the 
ground, their fear is not more engagement, their fear is that 
there will be less engagement. There is a fear of abandonment, 
in Afghanistan. People have a very long memory, and they 
remember back to what happened at the end of the civil--I'm 
sorry--the Soviet invasion, where, for what--as you can put it, 
we've decided that it was no longer in our strategic interest 
who ran Afghanistan. At this point, I think the Afghan concern 
is with less engagement, not with more engagement.
    That said, Afghans do have a concern with how troops do 
behave. You know, that's not to say that they approve of 
everything. You take an 18-year-old from this country and send 
them to Afghanistan, and what seems like a rudimentary and poor 
and unsophisticated society is, in fact, very nuanced and 
sophisticated in the way in which customs, manner, speech, 
posture is transmitted and understood. So, there's a steep 
learning curve for the troops there, but I think the current 
leadership is addressing that.
    Senator Feingold. Of course, I have tremendous respect for 
your knowledge and views on this. All I can say, for the 
record, is that these polling numbers, that may or may not be 
accurate, certainly reflect a view against our troops staying 
there for too long, and certainly against an increase.
    General Craddock, in a recent letter to President Obama, 
the heads of state of Great Britain, Germany, and France said 
it was time to discuss metrics and timelines for international 
activities in Afghanistan. And while I understand that you 
favor staying the course in Afghanistan, do we at least agree 
that, by making clear that we do not intend to occupy the 
country indefinitely, we may be better able to build support 
among the American and European people for our efforts in that 
country?
    General Craddock. Thank you, Senator.
    Yes, I would definitely agree with that. I don't believe 
the intent there is to ever occupy and stay. The key, as has 
been pointed out, is the enabling and development of the Afghan 
national security forces. As the SACEUR for the last 2\1/2\ 
years, I repeatedly told NATO nations, the very first thing we 
need are more trainers for the army and the police, 
particularly the police. The issue is more a public security 
issue than a national security issue for the people of 
Afghanistan. And a competent, trained, noncorrupt police force 
is important.
    So, I think that what we have to do is to lay out, then, a 
timeline for development of the Afghan security forces, and 
hold both international support to that and the Afghans to 
that, so that we can, one, establish some parameters, some 
milestones--and meet them--and then measure effectiveness.
    Senator Feingold. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And thank each of you. I think this is an outstanding panel 
and--as we had yesterday--and each of you have unique 
contributions.
    Ambassador Crocker, I want to thank you, especially, for 
your tremendous service. And I think the testimony that you and 
General Petraeus gave as we looked at a new strategy in Iraq 
was most important. And I think you alluded, in your opening 
testimony, how having people from the field here may be the 
most important thing we can do to actually ascertain what is 
the next best step.
    So, Mr. Chairman, I hope that's going to happen soon. I 
hope it's going to happen in the next few weeks. I notice 
there's a resistance, for some reason, for that to happen, but 
I could not agree more.
    I would also say that the themes that--before you move to 
our strategic interest in Afghanistan--seems to me there are 
two themes that--sort of underneath that. One is that we're 
there; meaning that--something for us, I think, to remember 
into the future--once we put our flag up in a country, our flag 
is up, and we're very resistant to ever leaving. So, that's an 
underlying theme; and, No. 2, that we're sort of trying to 
prove to Pakistan and Afghanistan that we're not fair-weather 
friends. So, there are, sort of, two underlying themes that 
make--that I know weigh much of what's happening, before you 
even get into the strategic-interest piece, and that's pretty 
prevalent in both countries when you're there.
    So, let me just ask you this, Ambassador Crocker. What 
expectations should we have in Afghanistan? What worries me, to 
some degree, is, we had a success in Iraq, based on a surge; we 
had a political movement, that you helped create with the Sunni 
Awakening and getting them working on our side. There have been 
discussions about doing the same with the Taliban. We're 
obviously talking about additional troops. What are the things 
that we should expect in Afghanistan? And what are the lessons 
that are not necessarily transferable, and those that are?
    Ambassador Crocker. Thank you, sir.
    I'm probably the least qualified person in the room to talk 
about Afghanistan in that degree of depth. I would say, though, 
that I think there is--as the chairman alluded to earlier, 
there is a linkage between terror and insurgency. My experience 
has been that terror can find a nest within a broader 
insurgency. In other words, I cannot see how, if we define our 
interests narrowly, as eliminating a terrorist threat--out of 
Afghanistan--that we can do that with any real degree of 
assurance without also having a successful counterinsurgency 
strategy. And that, again, in my not very well informed view, 
takes us into the range of issues that Ms. Lockhart and Dr. 
Hosseini touched on. I don't think there is much of a record 
anywhere in the world of successful counterinsurgencies without 
good-enough government--governance.
    Now, how far does this go? There, I am absolutely unable to 
state, but clearly there is, I think, an obligation for the 
administration to so state. That review is obviously underway. 
I think the sooner it can be brought to the point of 
articulation--again, what are our goals, why they are 
important, how they will be achieved, and how the different 
components link up--I think, is essential for the American 
people.
    Senator Corker. I think, in fairness, the administration 
has been rhetorical about this narrow mission, to make it sound 
good; but, in essence, all the things Ms. Lockhart has laid out 
are components of a counterinsurgency.
    And so, Ms. Lockhart, I think you did a very--I mean, 
basically you're talking about, in some degree, state-building 
or nation-building. I mean, I think we all know that those are 
the metrics that have been laid out. And so, we have this very 
poor country, that's been very poor for a long time. There are 
no oil resources, like there were in Iraq. And so, we're 
talking about building an education system and a health system, 
a water system, an electricity system, a security system, a 
police system. What are your thoughts about how we should view 
our long-term financial commitments? Because, let's face it, on 
the budget they have now, they couldn't pay for even a fraction 
of just the police that they have there. I'm just wondering if 
you might help us there.
    And I'm not sure we see any future for resources to do that 
in Afghanistan, for the midterm.
    Ms. Lockhart. Certainly. I think, as we've discussed, the 
civilian governance effort has been significantly 
underresourced, and an increase in resources is certainly going 
to be necessary.
    I think we probably need to look at two different scenarios 
for resourcing. One scenario is, if there is a process for 
rebuilding a legitimate government and a team of Afghan leaders 
in place who can govern responsibly. And, I think, in that 
scenario we're looking at far fewer external resources that 
will be needed, because Afghanistan will move more rapidly to 
collecting its own revenue.
    And while Afghanistan doesn't have oil, it does have the 
potential, I believe, to be raising somewhere between $5 to $10 
billion a year in its own revenue, because it does have very 
rich mineral resources, including copper, gold, lapis, 
amethyst, iron. It does have the basis for a successful 
agricultural economy. It was the largest exporter of fruits and 
nuts to the region, if not the world, in the 1970s. And it has 
a hardworking population and the potential for textile 
production, urban services, and a construction industry is 
certainly there. So, I think we need to move to put in place an 
economic strategy that will gear it to collect its own revenue.
    To answer your specific question on what resources are 
needed, I believe that we need to be looking at a medium- to 
long-term commitment of resources of probably roughly a 
doubling of existing resources on the civilian and governance 
side. But, if we move aggressively to raise Afghan revenue, or 
to enable the Afghans to collect their own revenue, that 
commitment could taper down in the second 5 years of the 
decade.
    Senator Corker. If I could ask one more brief question.
    Thank you very much.
    General Craddock, how many al-Qaeda are there in the world?
    General Craddock. Senator, I have no idea. Card-carrying
al-Qaeda? I have no idea. Sympathizers, logistics support, 
finance support? I have no idea.
    Senator Corker. Card-carrying. Give me----
    General Craddock. I don't know. I think that the--one of 
the reasons it's so difficult in our search is because of--
there's no hierarchy that we would recognize.
    Senator Corker. You know, the number 2,000 has been thrown 
out, and people dispute that, and I don't want--I don't know 
what the number is.
    The reason I asked the question--it's somewhat rhetorical--
our efforts toward al-Qaeda have now created a situation where 
we're involved in two major nation-building/state-building 
efforts--Iraq and Afghanistan. And--it's just a fact--and I 
hope that, somehow or another, we'll figure out a different 
strategy, versus going around the world building states and 
nations almost out of whole cloth.
    Senator Lugar [presiding]. Thank you very much, Senator 
Corker.
    Senator Casey.
    Senator Casey. Thank you Mr. Chairman.
    And I want to thank our witnesses for your presence here 
today, and the contribution you're making to this discussion 
and debate. I think we can have a real debate about these 
policies, and I think it's critical that we do.
    I want to especially thank General Craddock and Ambassador 
Crocker for your service to our country under the most 
difficult of circumstances.
    And I wanted to start with you, Ambassador Crocker, about a 
conversation that you and I had. And I don't expect you to 
remember any of this--I know a lot of Members of Congress 
visited you while you were in Iraq--but this was August 2007. 
Senator Durbin and I were with you at that time, and we had a 
dinner meeting. And General Petraeus was with us, as well. And 
I was very critical at the time--and I still am--about the 
language of Washington when we describe the conflict in Iraq, 
but also, now, the conflict in Afghanistan. Language like 
``victory and defeat,'' ``win or lose,'' which, in my judgment, 
is both inaccurate and misleading. And I think it's important, 
as we get the policy right on troop levels and on nonmilitary 
commitments, as well, that we also get the language right, 
because the American people don't have, will not, and should 
not, have patience for a political debate in Washington that 
doesn't ask and answer some tough questions.
    At the time, you said something I'll never forget. I want 
to ask you if the language that you used then is still relevant 
here, in what you learned from, not just your service in Iraq, 
but other service, as well. You said, at the time, that the 
words you used to describe success in Iraq were two, 
``sustainable stability.'' And I'd ask you, in the context of 
Afghanistan and how we deal with this strategy with regard to 
Afghanistan and Pakistan, are those words still operative? And 
anything else you can tell us about how you think we can 
achieve that.
    Ambassador Crocker. Thank you, Senator.
    I do, indeed, remember the conversation, and I would share 
your view about the use of language. Language does count. I 
think, if anyone ever cared to go through the interminable 
records of the testimony that General Petraeus and I provided 
to the Congress on several occasions, I don't think you'll find 
a single occasion in which either of us used those terms--to 
``win,'' to ``lose,'' ``victory,'' and ``defeat''--because, in 
many respects, those are not for us to determine, as----
    Senator Casey. I said ``Washington'' to leave out some 
names. [Laughter.]
    Ambassador Crocker. Thank you, Senator.
    Yes, I believe the concept of ``sustainable stability'' is 
valid, although I may now shamelessly steal Ms. Lockhart's 
phrase of ``good-enough governance,'' which I think is another 
way of saying much the same thing, of steps taken, measures 
taken, that will work, in terms of the society in which it 
counts, be it Iraq, Afghanistan, or Pakistan. It may not be our 
model, and it may be very far from perfect; but, if it provides 
a situation in which the security forces of that country are 
capable dealing, themselves, with whatever challenges to 
stability there are, then I think you've got ``sustainable 
stability.''
    What that will look like in Afghanistan--and, again, what 
the steps are to achieve it--I'm simply not competent to 
provide. I do think we've got the people out there who can do 
that, and I think, again, that what the administration needs to 
do is to lay out that framework. And then, since I had the 
experience of testifying before Congress, I would like to 
spread the opportunity to my current colleagues in the field to 
come and do the same, because I do think that field view is 
extremely important.
    Senator Casey. Thank you.
    And I have questions that I won't get to, for both ends of 
the table. But, I probably have time for one more. I wanted to 
ask Ms. Lockhart a question about what's sometimes referred to 
as a ``civilian surge,'' an increase in the number of 
nonmilitary personnel on the ground, which is a low number now 
in Afghanistan, and is building.
    I was very impressed, as we always are, in August, when I 
visited both countries and saw the respect that General 
McChrystal had for the nonmilitary folks, but how well-
integrated they were, and how central they are to the mission--
State Department folks, Department of Agriculture, USAID, DEA, 
and so many others. I know this is a hard question to answer, 
but if you can do your best in the minute or so we have left--
one, how many civilians do you think are needed or, do you have 
a sense of those metrics? And, two, how do we get it right with 
regard to our international partners, who, candidly, in some 
places are helping us a lot, and in a lot of significant parts 
of the world they're not doing much at all to help us. So, if 
you can address that, in terms of numbers or in terms of 
commitment. I know that's a hard one----
    Ms. Lockhart. Certainly. I think one of the first 
principles to work from is that what we're seeking to build is 
the space and tools for Afghan leadership and Afghan ownership. 
And I believe that, while the key focus on the civilian side is 
institution-building, it actually requires quite a small number 
of civilians. Certainly more--we need more civilians than there 
are at the moment. I probably wouldn't want to put a number on 
it. It probably isn't more than 1,000. But, the key----
    Senator Casey. In terms of ``1,000,'' is this what we would 
need eventually, or kind of where we are now?
    Ms. Lockhart. A total number, particularly if there's going 
to be U.S. leadership. There are, actually, tens of thousands 
of foreign civilians in the country at the moment, but most of 
them are fragmented amongst NGOs, U.N. agencies, and----
    Senator Casey. OK.
    Ms. Lockhart [continuing]. All sorts of efforts. But, I 
think, a total of 1,000.
    What is required, though, is a really thorough look at the 
skills gap on the Afghan side. And I think we should regear our 
focus to, What does it take to build up Afghan capability? And 
that does mean vocational training, secondary education, and 
tertiary education. Back in 2001, no investment was made in 
secondary and tertiary education, and vocational training; and 
if you're educating Afghans to age 11, you're not going to get 
a competent civil service. So, that's the lacuna I think we 
should be looking at.
    In terms of getting the international partnership right, I 
think that relates to your earlier comment very much, that we 
should move away from the language of war, of victory, and of 
loss to--back, perhaps, to some of the original language used 
in the 2001-02 period of a global effort to assist the Afghan 
people establish stability or legitimate governance. And then, 
based on that, look at a division of labor and burden-sharing. 
I think we need, perhaps, to look more to the economic 
multilateral organizations, like the World Bank and the ADB, 
that have robust approaches to accountability, while a U.N. 
mandate remains important. And then look at a division of labor 
with Europe and what countries like China, Saudi Arabia, and 
gulf countries and Japan can do to contribute as part of a 
global alliance.
    Senator Casey. Doctor, I had a refugee question, and, 
General, I had a question for you, but I'm out of time.
    Thank you very much.
    Senator Lugar. Thank you, Senator Casey.
    Senator Wicker.
    Senator Wicker. Thank you, Senator Lugar.
    I want to get back to one of the many excellent points that 
Senator Lugar mentioned during his extensive question, and ask 
about the election.
    Now, today is the 17th. We're supposed to hear some 
definitive results. I'm told the Afghan Central Election 
Commission has released the results, showing that President 
Karzai has received 54.62 percent of the vote. Now, the 
international community is still waiting for the Independent 
Election Commission to make its assessment.
    Senator Lugar raised the possibility that as many as one-
third of President Karzai's votes might be invalid. I wonder if 
any of you can tell me when we can expect to hear something 
from the Independent Election Commission. It seems to me that 
in listening to the administration, that there's almost a 
resignation that President Karzai is going to be the President 
for the next term, and that somehow those results will be 
allowed to stand, to the extent that either he will be 
reelected on the first go-around or he will win a runoff. So, I 
hope several of you can comment on this.
    But, let me start with Dr. Hosseini. You're here on behalf 
of the UNHCR, I realize. But still, you've been in the area. 
You've talked extensively--I assume you've talked across the 
spectrum of the ethnic groups in Afghanistan. So, what is your 
assessment of the support among the populace for President 
Karzai--of their feeling with regard to the validity of the 
election results and what might happen?
    Dr. Hosseini. Well, I think, when you speak to ordinary 
Afghans, there's no question that they express some 
disappointment in the performance of the Afghan Government so 
far. I think many of them expected more, and I--again, 
rightfully so.
    As far as the elections, clearly there have been some 
irregularities with these elections, and they've been well 
publicized. Precise scale of these irregularities, and whether 
they will force a second round of the elections, is up to the 
ECC and the IEC to determine. And they're, you know, examining 
the suspect ballots, and doing a recount.
    In my view, it's important, obviously, that this 
investigation be thorough, but also that it be relatively 
expeditious. And I say this as an individual and not as a--with 
my UNHCR hat on. You know, I think it's to the detriment of the 
country to have a prolonged period of political paralysis. It's 
to the detriment of the legitimacy of the elections, and I 
think it would exacerbate the Afghan people's already high 
level of anxiety about the elections, and cast doubt on the 
credibility of the outcome. So, I think it must be done 
relatively quickly. And, of course, the outcome has to be 
acceptable to most Afghans, and have at least the semblance of 
credibility. A difficult task, indeed.
    On the elections, I do want to put the entire process in 
some kind of perspective and say that, as flawed as the 
elections are--and we shouldn't compare the second-ever 
Presidential elections in Afghanistan to a process here in the 
States or in France; let's be clear about that--but it was an 
extraordinary logistic achievement to even hold these 
elections; even more so than the last time around. Three 
thousand donkeys carrying ballots; thousands of people who had 
to be trained in the middle of conflict in insurgent-wracked 
areas, under the threat and intimidation of the Taliban; 
hundreds of female searchers that had to pat down anybody in a 
burqa, to make sure it's not a man carrying a suicide jacket. 
Those are the sorts of logistics we're talking about. So, from 
a logistical standpoint, it was an extraordinary achievement.
    And the second point of perspective that I would offer is 
that, for 30 years now, the traditional means of the transfer 
of power in Afghanistan has been through violence, through the 
gun. With these elections, the Afghans have an opportunity to 
demonstrate that those days are in the past and that they can 
effect a peaceful transition of power. And maybe we, the 
international community, ought not to rush to judgment, and we 
ought to wait and let the Afghans resolve this peacefully.
    Senator Wicker. Ms. Lockhart, would you like to comment 
about that? And do you believe President Karzai has majority 
support among the population of Afghanistan?
    Ms. Lockhart. I think that if the European Union's 
announcement today is correct, that they suspected a third of 
the votes were invalid, then it will be demonstrated that the 
incumbent doesn't have majority support. And I would agree with 
Dr. Hosseini, that I think there is considerable anxiety 
amongst the population, and a loss of trust in their government 
over the last few years. What we're seeing at the moment on the 
ground is the Electoral Complaints Commission investigating the 
irregularities of process that may take several weeks, and I 
very much agree that that process should be resolved as quickly 
as possible, because the vacuum in leadership will be 
problematic on the ground.
    I think there are four options, very quickly, from here on:
    One is to accept the victory of the incumbent. The risk of 
this approach is that given the alliances with illegitimate 
forces that have been made, I don't think this will assure 
good-enough governance over the coming months and years, and 
rather, may see a further deterioration in governance.
    A second approach is to accept that and then have a robust 
counterinsurgency effort to build good governance, bottom-up. 
That hasn't been tried in other insurgencies in the past, and 
the jury will be open as to whether it could be successful.
    A third option, I think, would be to accept the victory of 
the incumbent, but have a robust agreement on benchmarks for 
accountability, going forward. And I believe that the Afghan 
people will be looking for the international community to take 
a robust approach on asking for standards of accountability and 
benchmarks of reaching good governance.
    And the last option would be to--almost to go back to the 
drawing board. If the ECC is to invalidate a sufficient number 
of ballots or one or more of the candidates or the process as a 
whole, that will open the question of moving to new elections, 
a new peace agreement or--a new Bonn-type agreement.
    Senator Wicker. Well, I'm sure you agree that it should be 
done expeditiously. You have any idea when we might hear 
something definitive from the ECC?
    Ms. Lockhart. I believe that's specified in the ECC 
regulations, that they must report back within a specified 
amount of time after the certification of results. I believe 
that's a month, but I could check that.
    Senator Wicker. Thank you.
    Anyone else on the panel wish to touch on this?
    [No response.]
    Senator Wicker. Thank you.
    Senator Lugar. Thank you, Senator Wicker.
    Senator Webb.
    Senator Webb. Thank you, Senator Lugar. And I would like to 
express my appreciation to the chairman and to you for having 
put together this extraordinary variety of expertise in the 
panel today.
    I don't know any American public servant who has had more 
time on the ground, intellectual dedication, and emotional 
commitment than Ambassador Crocker, and it's great to see you 
here today, sir.
    And, Dr. Hosseini, as someone who spent a good part of his 
life as a novelist, and also having worked in the dread 
Hollywood off and on for about 15 years, I have incredible 
admiration for the literary achievement that you were able to 
bring in ``Kite Runner.'' I've often said that you can 
communicate to people on an emotional level through a piece of 
literature in a way that they come to understand things 
probably better than any other way, and it's just an amazingly 
powerful film, and I congratulate you what it took to put 
together all of that. It's so rare to see a piece of literature 
that can hit all the issues of loyalty and respect and father-
son relationships and all those sorts of things. It was just an 
amazing achievement.
    I would like to begin by expressing my appreciation, 
actually, for what Senator Corker said, because it does address 
the difficulty that we have up here in this particular issue. 
And that is, when you look at where we seem to be going, here, 
from a national strategic perspective--I mean, from a 
perspective of American national interest, in terms of how to 
use our assets, where we put our expenditures, and in terms of 
national treasure, whether we should build up an infrastructure 
to address an enemy that is basically a mobile enemy.
    And we saw this in Iraq, quite frankly. You know, we built 
up a huge infrastructure to address two different sets of 
problems. One was the issue of international terrorism, which 
is intrinsically mobile, and decided to relocate, after a 
period of time. But then also to have to pick up the pieces of 
what we had done following our invasion, and try to repair 
relationships and move Iraq forward. In terms of the advantage 
that the forces of international terrorism wished to have, that 
was pretty good for them, long-term. We spent hundreds and 
hundreds of billions of dollars, and they remain active.
    We're looking at something similar here in Afghanistan, and 
I know we've got national mission creep going on now, you know, 
talking about whether we really are going to attempt to, 
basically, build a state here. And there's going to be a debate 
about this.
    And, you know, I look at what happened in Somalia a couple 
days ago. You know, if you're really talking about going after 
the forces of international terrorism, that was a pretty 
effective way to do it--coming over the horizon, hitting an 
element of international terrorism, leaving, not leaving behind 
an infrastructure, and being able to have the same 
maneuverability as your enemy has.
    On the other hand, we are moving forward with a different 
debate here, and we will have that debate. The question is not 
whether there is no military solution, which has sort of been 
agreed upon; it is whether the military component of this 
solution is one that is going to work. And I say all that 
because I would like to ask you, on your panel here, to look at 
this from two different perspectives. First, at what point do 
we reach a tipping point with the United States military, where 
the presence and the operations might actually be 
counterproductive? This has been raised before. But, there's an 
additional component to this that I have a good deal of concern 
on, and that is, to what extent, in Afghanistan, can we 
actually build a national army?
    I've asked this question to General Petraeus and General 
McChrystal. I asked it to Admiral Mullen the other day. This is 
not a country that has had experience with a national army. 
It's a country with a lot of national pride. But, the best that 
I can see is that, at one period in the mid- to late-1900s, 
there was a national army of about 90,000. If you take the 
police with this, we're talking about 250,000.
    So, on the one hand, at what point does our presence reach 
a tipping point, where it's counterproductive, where people 
believe that we are an occupying force, or whatever you want to 
put on it? And then, can we actually do the other piece of 
this, in terms of the history of the country?
    And, Ms. Lockhart, I'd actually like to get your views on 
that, as a starting point.
    Ms. Lockhart. I do believe that there is potentially a 
point at which presence may be counterproductive, but I don't 
believe we've reached that yet; and I think the only way that 
can be tested or ascertained is through polling and observation 
of the population.
    I believe, like Dr. Hosseini, that, on balance, while there 
are shades of narrow criticism that the presence is an 
occupation, those are very much in the minority, and the 
majority of the population seeks very much and hopes very much 
that the U.S. commitment remains, and the international 
partnership remains, for the long-term stability of the 
country.
    In terms of the possibility of building national 
institutions, whether the army or other institutions, I believe 
it absolutely is possible, and the remarkable success of the 
efforts since 2001 to build up the Afghan National Army--I had 
the honor to observe the first battalion graduate and walk down 
the street, and it was welcomed literally with the cheers of 
the population. And the pride of the people in that institution 
was remarkable, because they deeply understand that it's 
through institutions like that that their daily needs, most 
basically their security, can be met. And we've seen that in 
the Afghan National Army and then across the different 
institutions where Afghans, with a minimal commitment to 
training and education, do rise to the challenge of managing 
their own institutions.
    Senator Webb. Thank you.
    Ambassador Crocker, I remember you and I had an exchange 
several years ago with the situation in Iraq, and one of your 
strongly made points was that the Iraqis of all different 
ethnicities had come together in a national army. In fact, your 
point had been that, I think, more than 200,000 Shia had 
actually died fighting in the Iran-Iraq war. What are your 
thoughts about the situation with respect to Afghanistan?
    Ambassador Crocker. Well, the fortunate thing for me, 
Senator, is that I represent no one but myself these days, so 
as uninformed as my opinions may be, at least I'm entitled to 
have them. And since you asked to express them, I do believe 
that what we have seen thus far shows us, with all of the 
shortcomings in terms of manpower, materiel, and even 
abilities, that the Afghans are capable of developing and 
fielding national forces; as I understand it, perhaps the army 
more so than the police, but even with the police.
    And as you noted, sir, while Afghanistan has a history of 
challenges to central governments, it also has a history of a 
national military. And my sense is that Afghans are quite proud 
of the tradition of that military in the country's history.
    So, I think it can be done. I think it is being done. But, 
as we saw in Iraq, this takes time. The early tests that--as 
you know, that the Iraqi security forces faced almost took them 
apart. So, I think that we and the Afghans have to be careful 
not to put more of a burden on these developing forces than 
they can bear at this time. Like so many things in this part of 
the world, whether its Iraq, Pakistan, or Afghanistan, this 
will take time. And nowhere, I think, is that more the case 
than it is in the development of these security forces.
    Senator Webb. My time has expired, but I appreciate both of 
your answers. And, of course, the difficulty is the other side 
of that, that the more time we have with the size of the 
American presence, the more risk we have of being viewed in a 
different light. But, I thank you for your comments.
    Thank you.
    Senator Lugar. Thank you, Senator Webb.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Ms. Lockhart, thank you for all the work that you've done 
in Afghanistan, and especially in the post-September 11th 
period, when you were there on the ground, helping to lay out 
the foundation on which we can move forward in Afghanistan.
    You laid out four distinct options for governance in this 
post-election, but you didn't say whether you thought there was 
a preferred means of action. Do you think one of those options 
is preferable?
    Ms. Lockhart. I think the--well, thank you, for your kind 
words--I think the first two options I outlined, of letting the 
current governance arrangements continue unchecked, or that 
plus trying to build governance bottom-up while we have a 
vacuum, in essence, at the top, are not going to be desirable, 
and probably would not lead to success.
    I think the two other options, one of accepting the victory 
of the incumbent, but putting in place very strict conditions--
a roadmap and agreeing on benchmarks, particularly on financial 
accountability, and asking for some devolution of power, and 
putting in place checks and balances--would be one preferred 
option; and the other would be to go back to the drawing board, 
and putting in place a new transitional authority, which would 
probably govern for a 2-to-4-year period, and one of whose 
central tasks will be organizing a more robust set of elections 
next time, which will require, I think, this inquiry into what 
went wrong and what the institutions that are necessary to have 
a successful election, one of which will be a census.
    Senator Shaheen. And does that run the risk of creating a 
perception that the international community is making the 
determination about the future of Afghanistan and sort of 
erasing the elections, even recognizing that the elections 
might be flawed?
    Ms. Lockhart. I think that option would only be possible if 
the ECC, which is a domestic Afghan----
    Senator Shaheen. OK.
    Ms. Lockhart [continuing]. Institution would first rule 
that either one of the--one or more of the candidates, the 
process, or a certain number of the ballots were invalid. So, 
it would have to rest on that domestic determination. And then, 
a lot of care would have to be taken to ensure that the process 
moved forward in accordance with the Afghan Constitution; and 
there are provisions within the Constitution that would allow 
that to take place.
    Senator Shaheen. OK. Thank you for that clarification.
    Dr. Hosseini, this question is really both for you and for 
Ms. Lockhart, I think. And I, like Senator Webb, very much 
appreciate your books, and think that they're wonderful and 
have probably done as much as any policy in this country to 
make Americans care about what happens in Afghanistan. So, 
thank you for that.
    What do you see happening on the ground, in terms of 
coordination of aid among the international entities that are 
in Afghanistan and the United Nations? And several of you have 
referenced that. And what should be done better to improve that 
coordination and to deal with the corruption and the fraud that 
seems to be happening too much there.
    Dr. Hosseini. Thank you for your kind words. And I may have 
to defer a good chunk of this question to my more qualified 
colleagues on the panel. But, there's a perception in 
Afghanistan, among civilians, that of the billions of dollars 
that have come to Afghanistan, not a whole lot of it has 
reached the Afghans themselves. There's a sense of 
disappointment, that even though Afghanistan has been the focus 
of international attention now for several years, by and large, 
for average Afghans, the quality of life has not improved 
significantly. Most Afghans are still lacking for basic social 
services, the same as they were a number of years ago.
    I will just say that, of much of the money that comes to 
Afghanistan, only a fraction of it ends up in the pocket of the 
Afghans themselves. So much of the money is spent on providing 
security for the foreign presence, the--within the aid 
organization and the bureaucrats--to paying the salary of, you 
know, consultants. Much of the resources and the services that 
are utilized in Afghanistan are outsourced and therefore don't 
provide opportunity and employment for the Afghans themselves. 
And, of course, much of the money bypasses the Afghan 
Government itself, kind of reinforcing the image of the 
government as sort of being an impotent bystander. And I think 
those are all issues that have to be addressed.
    But, I'm going to defer to my other colleagues about more 
on the issue.
    Senator Shaheen. Thank you.
    I don't know--Ms. Lockhart, Ambassador Crocker, General 
Craddock, who would like to take a shot at that?
    Ms. Lockhart. Just a few observations.
    I think it's a terribly important point, because I think 
the failure to coordinate aid has actually fed into the 
corruption within the Afghan institutions.
    I think the first requirement is not being afraid of 
putting a robust set of conditions for aid, either through a 
World Bank IMF program or a U.S. or multilateral agreement. And 
central to that will be insisting on transparency, particularly 
in licensing and revenue, as well as expenditure and audits 
that should be released to the Afghan public.
    Second is putting the Afghan budget and institutions 
central. The Afghan budget is the policy coordination mechanism 
on the ground. I think we're making a mistake when we ask the 
U.N. to coordinate. U.N. mandate is important. The U.N. cannot 
coordinate; it's the Afghan budget. And we need a roadmap for 
each ministry. We've got a roadmap for the Afghan National 
Army; we need the same type of roadmap for the other 
institutions.
    And then, I think, we have got a coordination mechanism; 
it's the ARTF, the Afghan Reconstruction Trust Fund, which is 
managed by the World Bank, and it acts as a dual-key system on 
the flow of money. And using that, or developing a parallel 
type of trust fund for U.S. resources, would be essential.
    And then where NGOs, U.N. agencies, or private companies 
are contracted, then I think we need to apply the same set of 
robust requests for transparency and accountability, which, to 
date, have not been in place.
    Senator Shaheen. Thank you very much.
    Ambassador Crocker, do you have anything that you want to 
add to that?
    Ambassador Crocker. No, ma'am.
    Senator Shaheen. OK.
    Thank you both, Ambassador Crocker and General Craddock, 
for your service, as well.
    The Chairman [presiding]. Senator Kaufman?
    Senator Kaufman. Mr. Chairman, I want to thank you and the 
ranking member for holding these hearings right now, right in--
timely. I mean, I think this decision that's going to be made 
right now is one of the most important decisions we're going to 
be dealing with in a Senate where we're dealing with a lot of 
important decisions. And bringing the light to this thing is 
just--and having the panels we did--panels today and the panel 
yesterday have been excellent, just the right people. And so, I 
just want to--I cannot commend you enough for doing this.
    And I want to thank everybody on the panel. I mean, just 
having the ability of listening to what you have to say is so 
helpful in trying to deal with this.
    I just have a few questions. One of them is--it's mentioned 
by a number of Senators, and also in the popular press--that 
the Somalia raid is kind of a model for United States 
operations in Afghanistan. Is the Somalia raid a model for 
United States operations in Afghanistan?
    General Craddock. Thank you, Senator.
    A complex question. I'm not sure it's a model. I think it's 
a tool. And I think it has already been going on in Afghanistan 
over the past several years, through the United States 
counterterrorism forces, not so much the NATO counterinsurgent 
capability, with significant results. But, again, with a 
hierarchy that's amorphous--cells operating, as opposed to a 
vertical hierarchy--it's very difficult to be able to make 
long-term gains, because someone always then steps up. However, 
it is an ongoing, day-to-day operation done very precisely. 
It's what you don't hear that's probably more important than 
what you hear.
    Senator Kaufman. Great.
    Anyone else?
    Ambassador Crocker. Senator, I think that's a very 
important question, that certainly is beyond my expertise to 
adequately answer, but it is, I think, worth posing to those in 
the administration more qualified.
    My sense is that the Somalia model, if you will, probably 
cannot be successfully replicated in Afghanistan. I think the 
dynamics there are more complex. I also think, frankly, that 
given that the ISAF in Afghanistan, General McChrystal, is 
perhaps the most capable special operations commander that this 
country has ever produced, that if he thought it could be done 
that way, I think we'd be seeing different sets of 
recommendations.
    Senator Kaufman. Great. Thank you.
    There's a discussion about expediting the elections, that 
Senator Wicker raised, and I think, obviously, that would be 
key to everyone. Does anyone on the panel--I met with Abdullah 
Abdullah last--2 weeks ago. I don't think--there's always a 
chance that he might throw in with Karzai, but I think it's 
remote. But, just for the sake of this question, can anybody 
think of any way to expedite the end of this election without 
considering that there's a--some kind of a coalition 
government?
    Ms. Lockhart. Senator, it's a very important question. I'm 
not sure there is a way to expedite it. I think there will be a 
tendency to allow the ECC to complete its investigations and 
then make a determination on whether the process has met the 
standards of a ``fair enough'' election. I think the only thing 
that could bring it to a resolution earlier would be the coming 
together within the Afghan political elite of enough of the 
candidates--critically, Abdullah and Karzai, but potentially 
others within the political elite and--who would agree to form 
a type of unity government.
    Senator Kaufman. I mean, I think it's key that--I mean, 
this is the worst possible time for this to happen. So, if 
anybody comes up with any ideas--I hear a lot of talk about 
expediting it, but I've not heard a single person give us a way 
to, kind of, get to where we have to get to. So, I'd--if you 
come up with anything, I would--I would very much appreciate 
it.
    Let's talk about the civilian surge for a second, because 
Senator Lugar's raised that a number of times, and it's really, 
really important. How--one of the problems is recruiting 
people--how do we improve recruitment of Civil and Foreign 
Service officers, to move away from--as we move away from 
reliance on contractors?
    Ambassador Crocker. Senator, if I could just take one 
element of that, that I--drawing from my experience in Iraq, we 
need more efficient mechanisms in government to be able to 
respond to complex contingencies like Iraq and Afghanistan. 
Simply put, there are not enough people, period--not enough 
people with the skill sets that are required in these 
contingencies--within the Foreign Service, either State or 
USAID. It requires a process to bring in able talent from other 
agencies and from the private sector. And that still, frankly, 
does not work very well. It's the--it's called the ``31/61 
process'' and I can tell you that it's painful in the extreme 
to make that work--work quickly--getting the right people in 
the right places.
    I know that the administration has put more emphasis on 
building up what's called SCRS within the State Department, as 
a means of providing a civilian reserve, if you will. I would 
applaud that. But, a great deal more needs to be done to put in 
place the structures that will allow an administration to 
identify and quickly bring to the field the numbers and the 
skill sets that simply do not exist within the established 
foreign affairs agencies.
    Senator Kaufman. I think it's good you point out the 
difficulty of this. People kind of glaze over this. Senator 
Lugar's been talking about this quite a while, and this is 
really key. If we're going to be fighting wars of 
counterinsurgency in the future--we just kind of glaze over 
this--it isn't there. You know, we're trying to get people now, 
and we're having a hard enough time in Afghanistan. But, 
planning down the road is really, really important.
    Can I just ask you another question, kind of, on your 
experience in Iraq? And it's two things. One is, how is--we're 
trying to get the Taliban to come over, kind of like we did 
with the Sons of Iraq in Anbar province. Would you comment on 
whether you think that's possible in Afghanistan?
    Ambassador Crocker. I do think it's possible. Again, I'm 
not in a position to comment with any detail on the dynamics 
there. But, once again, I think we've got the right people in 
this fight. Both General McChrystal, of course, with his 
substantial experience in Afghanistan and in Iraq, where I had 
the privilege of serving with him; and then General Petraeus--
in many respects, the architect of the Awakening strategy--of 
course, now has oversight of both campaigns. So, I have a high 
level of confidence that we do have the people engaged on this 
that can figure out what can be done and how to do it.
    All of that said--and again, my colleagues, Ms. Lockhart 
and Dr. Hosseini, are far more qualified to speak to it--it 
is--it's going to be a very different and more difficult 
process. The Sunni insurgency in Iraq was not deeply rooted in 
time or in ideology. The Taliban, of course, are both.
    Senator Kaufman. Thank you very much. And I want to tell 
you, I think everyone agrees that our success in Iraq was based 
on the people we had there, and obviously one of the very, very 
best people was you. And the people we have in Afghanistan--
General McChrystal, Eikenberry, Rodriguez, McChrystal--we've 
got a good--Holbrooke covering the whole region--we've got a 
good team over there, too.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    Let me follow up on a few things, if I can. The--sort of a 
parallel to a couple of questions that Senator Kaufman was 
asking--but, on the issue of the Taliban, which is central to 
this--actually, before I get to that, I want to ask you, 
General Craddock, because it's important to our understanding 
of what the options are and the Taliban, as Supreme Allied 
Commander you were commanding NATO forces, and you're very 
familiar with the tensions within that block at this point. My 
sense is that we are losing our allies' enthusiasm for this 
effort and that a number of them--I won't go into the details 
here, but--have been very reluctant all along to engage. Their 
troops don't engage. And looking to them for additional 
support, here--I mean, I think, essentially, we're going to 
kind of be on our own, here, and I think we've got to kind of--
you know. Is that a fair assessment?
    General Craddock. Senator, I think that's a fair 
assessment, from a military perspective. I would agree, there 
is unequal burden-sharing among the alliance with regards to 
those who will and those who won't. I do think, however, 
there's opportunity with NATO allies to ask for trainers in 
areas where it may not be as risky and they may have some 
political viability. I think they should be asked for civilian 
surge capability. There's plenty of that in Europe. If you 
knock down the wall between NATO and the EU, you might be able 
to access a lot of that capability that we need there.
    The Chairman. Well, I'd like to examine--that's a good 
thought there, but I want to examine this attitude a little 
bit. Do they know something that we don't know?
    General Craddock. Well, I can't speak for them, in terms of 
what they know.
    The Chairman. Well, but you've had these conversations. 
I've had these conversations, and you have too. There is an 
attitudinal difference about the threat. There's a threat-
definition difference, isn't there?
    General Craddock. Indeed. They----
    The Chairman. But, isn't that important for us to 
understand?
    General Craddock. Well, I think it's--I think it's been 
discussed here. In Europe, terrorism is viewed as a police 
issue when it's visited upon their people, and you deal with it 
then, as opposed to stopping it before it gets into your 
country. So, the military generally does not deal with 
terrorism to the extent that we do here because of the attacks.
    The Chairman. But, I think their perception goes, actually, 
deeper than that; I think there is a sense--there's a different 
sense of, sort of, how you manage this over a period of time.
    You're nodding your head, Ms. Lockhart. You want to share 
your perception, then?
    Ms. Lockhart. Um----
    The Chairman. Your body language got you in trouble, here. 
[Laughter.]
    Ms. Lockhart. I think--twofold. I would agree that there is 
absolutely a waning enthusiasm amongst public opinion in 
Europe. I think that's partly because there has yet to be a 
credible articulation of exactly what the strategy is going to 
be, and particularly the failures in Helmand, in Britain, is 
infecting the public debate. And that's, again, partly because 
in Helmand there was not a credible articulation of a 
governance and development strategy. So, it remains open to 
convince Europe. I do believe the public opinion could be 
reconvinced if that strategy was articulated, because the----
    The Chairman. Your strategy involves a pretty significant 
commitment of resources, investment, personnel, civilian side--
I mean it really is a nation-building strategy.
    Ms. Lockhart. It is. And I believe that there will be more 
appetite in Europe and other countries for engagement on 
training, as General Craddock articulated, and on the civilian 
surge elements, particularly in areas like capacity-building 
and economic investment. So, a sensible division of labor, 
going forward, may be to look to support from allies, 
particularly in Europe and Japan, for that civilian type of 
assistance, recognizing that the United States will continue to 
bear the brunt of effort on the military side.
    The Chairman. And, General Craddock, we're going to get 
some folks who are more, hopefully, operational, with respect 
to Afghanistan itself, as we go down the road, here. But, from 
the military perspective, in order to do the kinds of things 
that Ms. Lockhart, and others, have talked about doing, in 
building the governance, building the--the capacity-building 
and so forth--you've got to have some security. But, is it 
possible to do the security without the kind of current 
engagement in civilian collateral deaths that we currently 
have, or is that a--are the insurgents always capable of 
guaranteeing that you have that, even if you don't want it? And 
is that a great danger, here?
    General Craddock. It's my judgment that, in irregular 
warfare, and given what we know about the insurgents, that they 
were always capable of arranging that situation. I can give you 
chapter and verse, over and over again, of operations and 
targeting that looked fine, but didn't turn out that way, for 
myriad reasons; but, again, the use of civilians as shields is 
very difficult to combat.
    Now, having said that, I think we can continue to work to 
minimize. I think that the tactical guidance put into place by 
General McChrystal recently has gone a long way, and will 
continue to do that, to minimize that pushback.
    If I may, a point that Ms. Lockhart raised. The British 
strategy in Helmand; the Dutch strategy in Uruzgan; the 
strategy here or there; the United States strategy in Paktika 
or in Nangarhar--one of the problems we face is the arrangement 
of NATO. Nations view their own provinces as a fiefdom--or 
provinces, as the case--unlike the United States which has a 
regional command, so they deal with that at the expense of 
dealing with the country as a whole. And it has caused us 
problems over time.
    The Chairman. I agree with that. I think one of the most 
significant problems has been the absence, for almost 8 years, 
of unified command and a unified strategy. In fact--and people 
need to understand this; this is important as we think about 
Afghanistan--we have traveled this journey for almost 7 years 
without a strategy. There was sort of a--you know, just a 
continuum, at the expense of Iraq. And I think most people have 
agreed that troops were diverted, resources were diverted, 
focus was diverted. So, it has only been in these last months 
that people have begun to really hone in and say, ``How do you 
adjust?''
    The challenge, as I wrote, back last February, is the clock 
ticking, the amount of time that's been lost to the corruption, 
to the--you know, to the other things--and can you make it up?
    And I want to come back to that for a moment, Ambassador 
Crocker, if I can. With respect to the Taliban, you made a very 
perceptive observation in answer to Senator Kaufman's question, 
and you noted the historical cultural depth of the Taliban 
versus the insurgency in Iraq. There are different--however, we 
keep hearing about, sort of, different shades of Taliban. And 
can you share with us, perhaps, you know, to what degree can 
the Taliban be sort of divided, in a way, here? Can you--is 
there a diplomatic, slash, civilian ability to reach out to 
them and, in fact, give them something that they want more than 
being Taliban, and therefore isolating the really hardcore 
Taliban? Or are we dealing with a monolithic entity?
    Ambassador Crocker. Mr. Chairman, I would make a few 
observations on the methodology, if you will, and then perhaps 
Dr. Hosseini or Ms. Lockhart could--would have some comments 
more on the nature of the Taliban as they see it, because 
that's not my area of expertise.
    The principle we followed in Iraq was exactly what you 
suggest. It was talking to anyone who would talk to us, without 
regard to what they may have done to us in the past, trying to 
find splits, fissures, differences of view, people who would be 
susceptible to whatever blandishment we might offer, to break 
up an insurgency, if you will, to pull people either to our 
side or at least into the neutral zone. And we did that without 
spending a tremendous amount of time trying to figure out what 
ideological persuasion might exist here or there. We just kind 
of went at it. We--you know, the word--we got the word out that 
we're open for discussion.
    It seems to me that a similar approach has great potential 
also in Afghanistan, because the Taliban is not a monolithic 
organization, they are not card-carrying members. There have to 
be many different motivations and levels of commitment, so it's 
by seeking ways to engage, to discuss--direct, indirect--that I 
think will find what the limits are of shrinking an adversary 
down to the smallest possible number of irreconcilables. As we 
put it in terms of Iraq, you want to reduce the number of 
people who absolutely have to be killed to the smallest number 
possible. And I think, again, the same methodology will work in 
Afghanistan.
    But, my colleagues would be far more knowledgeable on the 
nature of what we're dealing with there.
    The Chairman. Do you want to comment, either of you, on 
what--just quickly? I want to try to----
    Dr. Hosseini. Sure. I agree with the Ambassador. The 
Taliban are not a monolithic movement, if they ever were. The 
term ``Taliban'' now refers to a cluster of different groups 
that more or less answer to different leadership. So, part of 
the challenge of--and again, I'm sort of out of my element 
here, but--just part of the challenge of negotiating with these 
people is that there's no--in the absence of clear leadership 
structure, it's difficult to determine who exactly you speak 
to.
    And, in addition, at the present time, it seems to me, the 
Taliban have no incentive, really, to negotiate, because the 
perception is that they've managed to frustrate the coalition.
    In addition, the United States would likely ask the Taliban 
to sever their ties to the more radical groups, like al-Qaeda; 
and they may be reluctant to do that. And the Taliban, in 
exchange, may say to the Afghan Government that, ``We'll 
negotiate, but we need the foreigners to leave the country.'' 
And again, these are very difficult and challenging 
preconditions.
    That said, I think that there's an opportunity to at least 
engage some of the more so-called ``moderate'' members of the 
Taliban. These would be the more Afghan, the more reconcilable 
elements. If there's a tradition in Afghanistan, it's switching 
allegiances. We saw that over and over again during the civil 
war in Afghanistan. And, if anything, Afghans are a pragmatic 
people, and if certain elements of at least the Afghan movement 
can be convinced that it's in their self-interest and in their 
pragmatic interest to come over to the other side, they may be 
interested in doing that.
    But, I will say that, on my recent trip to Afghanistan, I 
spoke to a lot of people on the street, and my sense is that, 
by and large, a lot of people, although they don't feel any--
necessarily any kinship with the Taliban, they are in favor of 
some kind of negotiation between the West and the Taliban.
    The Chairman. Thank you.
    Senator Lugar, do you have any more questions?
    Senator Lugar. No, thank you.
    The Chairman. Senator Casey.
    Senator Casey. Mr. Chairman, I know we have to move on, but 
I felt guilty that I had not asked the doctor and the general a 
question. So, at the risk of delaying things--just two quick 
questions.
    Doctor, I want to commend the work of UNHCR across the 
world. We held hearings, at the subcommittee level, on refugees 
in both Iraq and Pakistan, and I was very interested in what 
you said about the refugee challenge in Afghanistan. I guess 
I'd ask you this question: What's the short-term or the near-
term challenge with regard to ``reintegration'' of Afghanis? 
Second, what is the likelihood that there's going to be a 
dramatic increase in the number of refugees in Afghanistan? 
Which becomes, in all refugee situations as I saw this 
firsthand on the ground in Pakistan, where I visited an IDP 
camp there--internally displace people were for the most part 
treated well, and seemed to be moving back to their 
communities. But, if it doesn't go well, you have both a 
humanitarian and a security problem.
    Doctor, what is your sense of the increase that may occur 
in Afghanistan, in terms of the number of refugees; and second, 
the challenge of reintegration.
    The Chairman. I'd just--before you answer, I need to go 
down to the Finance Committee for a few minutes on the health 
care thing, but I just want to thank the panel for your 
contributions today. It's been very, very helpful. We have a 
distance to go yet, but I think we're beginning to shed some 
light on it, and we're very grateful to you for taking time to 
be here today.
    And I thank my colleagues.
    And whoever wants to be last questioner, just close it out. 
Thanks.
    Senator Casey [presiding]. Thank you, Chairman Kerry.
    Dr. Hosseini. Reintegration of Afghan refugees continues to 
be a very difficult challenge. And to put it in perspective, 
let's remember that Afghanistan, even in its heyday, ranked at 
or very near the bottom of the global index for human 
development. Now, put that country through 30 years of 
successive civil conflict that saw the destruction of virtually 
every meaningful institution, and then increase its population, 
in a span of 6 years, by 20 percent. I would propose to you 
that if we increased the population of even a developed nation, 
like France or the United Kingdom, by 20 percent--How would 
they be able to handle it? Frankly, it would be chaotic. But, 
in Afghanistan, the lack of public administration and lack of 
effective governance has allowed that to happen. And so, what 
we're seeing in Afghanistan, in regards to refugee 
reintegration, is the stresses and strains of a government that 
is sort of more or less buckling under the strain of 
reabsorbing the millions of people who have come back.
    So, for the refugees who have come back, reintegration in 
Afghanistan is a serious challenge. For some, they have more or 
less been able to resume their lives in a relatively settled 
fashion. But, for many refugees, they continue to face the lack 
of basic social services; foremost among those, land, shelter, 
jobs, and then water, education, and access to health 
facilities.
    I believe that the era of spontaneous, voluntary return is 
over. We saw 5 million people coming from--since 2002. Last 
year, 280,000 Afghans returned home. This year, a fraction of 
that; only 50,000. The reasons for that have to do partly with 
the low absorption capacity in Afghanistan; partly with 
security, particularly the refugees who are in Pakistan or 
originate from the Pashtun belt and who have concerns about 
returning to the place of origin, where the insurgency activity 
is very strong; part of it has to do with lack of employment 
opportunity. This is particularly the case for the refugees in 
Iran, who have relatively better living conditions, and where 
there is--in Iran, they've been able to make a life for 
themselves.
    So, 2.6 million Afghans remain still abroad; 1.6 million, 
roughly, in Pakistan, and 1 million in Iran. And it is far from 
clear whether, or if, they will return from Afghanistan. As I 
said--to Afghanistan--as I said earlier, 80 percent of those 
refugees who remain abroad have lived there for more than 20 
years. They no longer feel like Afghans, for many of them. They 
feel no personal kinship with Afghanistan, they don't dress 
like Afghans, they don't speak like Afghans. And the idea of 
uprooting their lives and resettling to a remote region in that 
country is not particularly attractive to them. So, it's a 
major challenge for the Government of Afghanistan, for UNHCR, 
and the governments of Pakistan, but particularly with Iran, to 
negotiate and to come to a resolution as to the ultimate fate 
of the refugees.
    As far as the increased number of refugees, we are seeing 
far more displacement than we were a few years ago. We are 
now--we have over a quarter of a million Afghans who are 
displaced. And the reasons for displacement within Afghanistan 
have to do partially with the conflict, particularly in the 
south and the southeast, where, again, the insurgency is 
strong. But, part of it has to do also with land dispute, with 
lack of economic opportunity, and so on and so forth. So, for 
the foreseeable future, I think this will be a challenge for 
UNHCR.
    Senator Casey. One of the more interesting parts of the 
challenge--or the results, I should say--in Pakistan was that 
you had about 80 percent of the internally displaced people, 
who were displaced because of the military conflict in places 
like the Swat Valley and other places go into homes. People 
would take them in, based upon both, I think, Pashtun tradition 
and the welcoming way that they bring people into their homes; 
and second, because of the experience of the 2005 earthquake. 
So, you had a 2 million-plus in Pakistanis who were displaced, 
80 percent of them were brought into homes. So, maybe the 
challenge there was a little different than it might be in 
other places, including Afghanistan.
    I know we don't have a lot more time--but, General, the 
last question is for you and then we'll wrap up. And you may 
not have an opinion about this yet, because it's about 24 
hours--as we do in Washington, we want opinions on something 
that's barely out, but the administration has put forth, now, a 
draft, or at least a starting point, on metrics, what they call 
``evaluating progress'' with regard to Afghanistan, both 
military and nonmilitary. I know you may not have had a chance 
to review it yet, but do you have an opinion on what they've 
produced? And, if not, what's your sense of how we should go 
about that? Because we need people that have the kind of 
experience you have to weigh in on what metrics are valid, what 
metrics are ones that we should use. And we have to have a--I 
believe--``we,'' meaning the Congress, the administration, 
both--have to give a lot of frequent, frequent, frequent 
reporting on progress if we want to sustain support for any 
kind of an effort.
    General Craddock. Thank you, Senator.
    I have not seen the metrics. I know that the--it's been a 
work in progress for some time. I am a strong supporter of 
metrics. What we have done to date, in my judgment, has been 
measure performance. How many miles or kilometers of road, how 
many children are in school, how many vaccinations? But, we 
haven't measured the effect of the performance. And these 
metrics have to go to the next step. What is working? How do we 
measure it? Do we measure what we can measure, because it's 
easy to measure, even though not relevant, or do we measure 
what's important, to determine the effect, and then reinforce 
success, stop failure, and find something else? NATO has 
struggled with this. They're still working on it. The ISAF 
forces are working on metrics.
    I think we need to pull together some good analytical minds 
and determine--critically determine what it is we'll focus on, 
both in security, governance, and this development process. 
They all bleed over into each other's field. You can't get one 
without the other.
    So, I will be looking for this closely. I think that it 
will behoove us, in the coming very near term here, to come to 
grips with this. The hard part will be going out, getting the 
data, and then the critical objective analysis.
    Senator Casey. I hope all four of you will weigh in on that 
as time goes by. We need your help.
    Thanks very much.
    This hearing is adjourned, unless Senator Kaufman has 
something else. We're all set?
    Hearing adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Clare Lockart to Questions Submitted by
                      Senator Russell D. Feingold

    Question. Ms. Lockhart, I strongly believe that we should help the 
people of Afghanistan combat corruption but it is not clear to me that 
our anticorruption efforts require--or necessarily benefit from--a 
large foreign military presence. Indeed our historical experience is 
that the exigencies created by large military operations, such as the 
rush of aid and contracting money, can create a war economy that 
actually feeds corruption. Do you agree that this is a possible danger 
in Afghanistan?

    Answer. Senator, like you, I strongly believe that combating 
corruption is a high priority.
    When I traveled across the country in 2002, I found a largely 
functional civil service (the Taliban had just been the top layer) of 
240,000 civil servants, and my and my colleagues' analysis showed that 
the standards of accountability were quite high in the culture; at the 
same time crime levels in society were very low.
    Since then, corruption was allowed to set in and has festered. I 
believe this comes from 4 main sources:
    First, the decisions in 2002 to 2004 not to ensure the budget of 
Afghanistan was resourced: as a consequence, for several years it was 
not possible to meet the basic salaries of the Afghan civil service, 
even at the base rate of $50 per month. As a result, many key officials 
left, leaving the system open to abuse; and others were most likely 
forced into corruption in order to survive.
    Second, the decision to support the ``regional strongmen'' with 
large amounts of funding channeled to them as individuals, without 
calling them to account for their actions. This led to the revival of 
the 1980s/1990s culture of warlordism, where a small number of men 
considered themselves to exist beyond the realm of accountability and 
rule of law. I have personally witnessed several events where such-used 
intimidation and threats of actual violence, expropriating resources 
(usually in multiples of millions of dollars) from officials who were 
distressed at the notion of putting national resources in private 
hands. The Loya Jirgas of 2002 and 2003 saw the population bitterly 
complain about the representation of such people within a national 
discussion, given the violations they had committed against the 
population in general and women in particular. The commanders have now 
been encouraged and permitted to build up a huge power and resource 
base, as opposed to 2001 when they were down to their last supplies. 
Bringing them within the fold of rule of law is going to be an enormous 
challenge.
    Third, the massive funding of contractors, NGOs and U.N. agencies, 
which create not only a war, but an aid, economy, which channels money 
outside the normal governance processes of making decisions through a 
budget process. At the same time, this rush creates hundreds of 
thousands of positions in parallel organizations for Afghans, usually 
as drivers, assistants, and translators, so they are attracted away 
from their frontline positions as civil servants, doctors, teachers, 
engineers, along with nurses, professors to become support staff. This 
wage inflation from overreliance on contracting is one of the primary 
causes of undermining Afghan capacity, by creating incentives for 
people to leave low-paid public jobs for high-paid private jobs as 
translators and drivers. There should be regulations to prevent such 
``poaching,'' both in DOD and DOS contracting.
    Fourth, the failure to understand systems of accountability 
(positively) or systems of corruption (negatively) through the process 
of public finance, from revenue collection through to budgeting, 
payroll, procurement, payments, accounting and auditing. The World 
Bank's Afghanistan Reconstruction Trust Fund is in my view the main 
driver of accountability, as it operates through a dual key system 
requiring audit reports before reimbursements for expenditure can be 
made, and in my view this should be the main channel for U.S. 
assistance. I find that the work of the World Bank in building the 
crucial systems of accountability and partnering in the design of the 
national programs with the government is not well understood, and I 
would encourage the World Bank team urgently to provide information 
briefings to key Congress committees, staff, media and the think-tank 
community on how this operates.
    If the civilian strategy is not firmly oriented around building 
Afghan sovereignty, then military operations and the provision of large 
funding streams going to thousands of different contractors risk 
creating exactly the situation you describe. I think this is what has 
happened, especially in the last 5 years, the good news is that I see 
real evidence that there is wide recognition of this danger by the 
administration, and in Congress, and a real desire to fix it. The 
question is, Do we have time to turn it around? I believe we must try.
    The plans emerging from the ground team in Kabul seem to be to hold 
ministries to strict standards of accountability and transparency, and 
to keep flows of money from being expropriated.
    In my view, the following steps would be essential and/or helpful:
    1. Ensure that the budget of Afghanistan is robust and adequately 
funded to meet key expenses (with maximum contribution coming from 
Afghanistan's revenue).
    2. Request IMF to prepare realistic revenue estimates for 
Afghanistan's future revenue, including different scenarios for 
different levels of corruption and political will to grow the economy 
and reduce leakage in revenue.
    3. Ask IMF and World Bank to prepare a plan with strict 
conditionalities for fund disbursements based on standards of 
transparency and competent execution.
    4. Prepare a framework for reducing project funding outside the 
Afghan budget, and preventing poaching of government staff. NGOs can be 
contracted through the Afghan budget; e.g., the National Health Program 
by which NGOs and private companies are contracted province by province 
to provide services, but with clear standards for wages and 
accountabilities. This model should be generalized.
    5. Mandate U.S. contributions to the U.N. be conditional on the 
U.N. revising its wage levels for support staff so that they are on a 
par with Afghan Government salaries. There is a procedure for doing 
this. It is astonishing that much U.S. funding is going to support 
programs where drivers, assistants, and translators are paid upward of 
$600 per month when teachers, doctors, nurses, and judges are paid a 
fraction of this. This must be urgently investigated.
    6. Investigate and prepare ways for the CERP/PRT and USAID funding 
to be channeled so as to maximize Afghan job creation and the basis for 
small- and medium-sized construction industry. There are precedents 
from other countries where external financing was channeled to lay the 
basis for a construction industry most noticeably in Singapore of the 
1960s and Spain of the 1970s. This requires moving to adopt Afghan 
Building code and working to nurture increase of the capacity of these 
firms. There are often four or five levels of subcontracting, resulting 
in very high overhead, with Afghans being the 4th or 5th link. It would 
be better for all parties if they were first, and if they do not have 
the capacity to do so, to focus on building this capacity. I have a 
concrete set of proposals as to how this can be done if there is 
interest in following up. Valuable efforts have been made for ISAF NATO 
troops would buy their water from Afghanistan. Such programs could be 
extended to food and other essential supplies, which could mitigate the 
negative effects of troop presence by using them as a market force to 
grow the Afghan economy.
    Regarding the question of presence of troops; I believe that given 
our previous turning a blind eye to the growing power of the ``regional 
strongmen'' or warlords, and our previous badly managed campaign which 
has permitted the incursions of the Taliban into previously stable 
areas, the presence of the threat of force and the actual use of force 
is going to be necessary to create conditions of stability and rule of 
law. Commanders in the field must use their presence judiciously, not 
to ``support the government'' in a blanket way, but rather to 
understand which actors are committed to working within rule of law, 
and how to move toward reassertion of the culture of ``laws not of 
men'' that the population is demanding, which the Taliban, in a brutal 
and simple way, is currently claiming to offer, via dangerous parallel 
governmental structures (courts and police).

    Question. Ms. Lockhart, there is a common assumption that we must 
provide security before we can do development. I think this fails to 
recognize that our military presence can actually create a violent 
backlash that undermines development efforts. Would you agree that this 
is a serious concern.

    Answer. With regard to the first part of your question, I believe 
that ``we must provide security before we can do development,'' is an 
assumption that should be challenged. I think this assumption has two 
flaws: First, that ``we'' can provide either security or development. 
If security or development are to be provided, it is Afghan 
institutions and people who will provide their own security, and 
development is an endogenous process which must be driven by Afghan 
people, processes and leaders. Many of the mistaken policies of the 
last years have been driven by the faulty conception that security and 
development can be done for a native population by international actors 
tout court. Having said that, given the deterioration in the situation 
to where we are today, the ANSF are not capable of providing security 
for the population, most (but not all) of Afghan ministries are not 
funded or equipped to provide social services on a large scale, and the 
Afghan political elite has now subverted the civil society that could 
have underpinned a vibrant economy. So the question now is this: given 
ultimately that there is agreement that it is Afghans and their 
institutions that will ensure the level of security and sustained 
economic growth, and indeed rule of law itself, how do a foreign 
presence, and a foreign exit, and foreign resources and advice, help 
establish the conditions for Afghan sovereignty to be responsibly 
exercised.
    The second flaw in the ``security before development thesis'' is 
that security must precede development: in my view, development is 
inherently about processes of change--economic, social and political--
through creation of institutions and organizations. Security and 
development are thus symbiotic and require each other. For example, to 
have an army, one must be able to have finance organizations--that have 
a budget and payroll to underwrite the costs--and a basic education and 
health system, and proper nutrition, to ensure there are viable 
recruits to that army, and a possible officer corps. In some cases, 
security can be achieved through societal compacts at the local level 
for groups to cooperate. This therefore points again to the need for a 
political process to be articulated that frames all efforts made.
    I agree that there is a serious concern that military presence can 
prompt a backlash, or at least is being portrayed as an occupation by 
some actors. This is why it is imperative that the presence should not 
be framed as an occupation, nor should the presence be an occupation. 
To the extent that presence continues, my view is that the presence 
should be framed in line with the Bonn Agreement and U.N. mandates of 
2001, which saw the presence of international actors including the 
U.N., as a global effort to assist the people of Afghanistan to 
establish a sovereign government so they can govern themselves. The 
participants of Bonn requested ISAF forces to provide stability while 
their own forces were being established. The legal basis for presence 
is extremely important as this informs the view of legitimacy of 
presence. What we need to do is to examine this basis, and once policy 
clarifications are made, to communicate this to the global and Afghan 
public. It is more likely that presence would provoke a backlash if 
that presence is perceived to be backing up a corrupt and predatory 
Afghan Government.
    While the overarching framing is the most important factor, the 
second factor is the way that any troops actually operate on the 
ground. Initially, ISAF forces were strongly welcomed by the 
population. I personally witnessed many interactions where Afghans 
actively praised them and asked them to stay. Where ISAF, which then 
came under NATO command, were initially directed only at stability or 
peacekeeping operations, the OEF forces were initially a separate 
operation, directed at combating the Taliban. In my view, confusion 
came when the two operations were merged in 2006 and 2007, just as the 
Taliban reemerged, provoking need for use of force, without explaining 
to the population that ISAF/NATO would not only be doing peacekeeping 
but would now also be doing heavy combat operations. One option would 
be to separate the two missions with a clear demarcation, as it is 
indeed bewildering for the Afghan population that the same mission is 
engaged both in peacekeeping and offensive operations. The other is to 
face a reality that the mission is complex, and mixes various elements, 
but to compensate for this by explaining the rules of engagement 
clearly to the population. Now, the change in strategy through the 
McChrystal doctrine of protect the population and establish ANSF, while 
avoiding civilian casualties, is a clear and significant shift in 
strategy, matched by tactical guidance. McChrystal has also recently 
emphasized the necessity of good communications. If these two 
innovations can properly be operationalized, whereby troops win the 
trust of the population, then there will not be a backlash, or it will 
be small enough to be manageable. This is what has been discovered in 
former COIN campaigns. And indeed, if we are to ask Afghans to buy into 
a new political settlement, and turn their backs on the Taliban, for 
this request to be believable it would be imperative that they would be 
protected, either through Afghan or international forces.
    Finally, if Afghan forces are to be credible, competent and 
trusted, then serious problems with the way they operate must urgently 
be addressed. The ANA needs to become more balanced, as it is perceived 
by Pashtuns as a northern-dominated institution, and the ANP are 
notoriously corrupt and often not aligned to upholding and enforcing 
rule of law.

                                  <all>

</pre></body></html>
